la
Note: This disposition is nonprecedential
United States Court of Appeals
for the Federal Circuit
HAROLD E. RUTILA, IV,
Petitioner
v.
DEPARTMENT OF TRANSPORTATION,
Respondent
2019-1712
Petition for review of the Merit Systems Protec­
tion Board in No. DC-1221-18-0474-W-l.
Decided: February 10, 2020.
Harold Edward Rutila, IV, Canton, MI, pro se.
Domenique Grace Kirchner, Commercial Litiga­
tion Branch, Civil Division, United States Department
of Justice, Washington, DC, for respondent. Also repre­
sented by Joseph H. Hunt, Allison Kidd-Miller, Rob­
ert Edward Kirschman, Jr.
Before Dyk, Taranto, and Stoll, Circuit Judges.

2a
Per Curiam.
Harold E. Rutila IV appeals a decision from the
Merit Systems Protection Board (“Board”) denying his
request for corrective action under the Whistleblower
Protection Act. We affirm.

Background
Mr. Rutila had a temporary appointment as an Air
Traffic Control Specialist with the Federal Aviation
Administration (“FAA”). As a condition of continued
employment, he was required to take three perfor­
mance evaluations that simulate real-life scenarios as
part of the Initial Tower Cab Training. In May 2016,
Dan Henderson administered and graded Mr. Rutila’s
first evaluation. Mr. Rutila challenged his score on this
evaluation by filing a Technical Review (“TR”). The TR
process is designed to offer trainees “an avenue to en­
sure points lost during a[n evaluation] are based on
[relevant FAA] rules or procedures.” J.A. 421. Trainee
requests for TRs are evaluated by a Technical Review
Panel of two supervisors.
As a result of Mr. Rutila’s challenge, it was deter­
mined that Mr. Henderson erroneously deducted one
point from Mr. Rutila’s grade based on Mr. Rutila’s fail­
ure to refer to an aircraft using specific phraseology
during the simulation. Mr. Rutila regained the point
and consequently passed his first evaluation. He also
passed his second evaluation.

3a
Mr. Rutila’s third evaluation was administered by
Michael Taylor. After completing this third evaluation,
Mr. Rutila was debriefed by Mr. Taylor and Mr. Hen­
derson, though Mr. Taylor alone ultimately graded the
evaluation. Mr. Rutila received a failing score. His
score on the third evaluation lowered his overall train­
ing score, which meant he could not pass the Initial
Tower Cab Training. Although Mr. Rutila challenged
his score on the third evaluation by filing six TRs, the
TR Appeal Board denied his challenges, and his score
remained unchanged. Mr. Rutila was deemed “mathe­
matically eliminated” from the program and, according
to protocol, was terminated on May 24, 2016.
Mr. Rutila timely filed a complaint with the Office
of Special Counsel (“OSC”). He alleged that he had
been terminated as a reprisal for filing TRs and help­
ing other trainees file TRs. In particular, he argued
that Mr. Henderson influenced Mr. Taylor’s scoring of
Mr. Rutila’s third evaluation in retaliation for Mr. Ru­
tila’s earlier TR filing that noted Mr. Henderson’s grad­
ing error on the first evaluation. On February 16,2018,
OSC terminated its inquiry.
On April 22, 2018, Mr. Rutila appealed to the
Board under the Whistleblower Protection Act, 5 U.S.C.
§ 2302(b)(8M9) (“WPA”). The Administrative Judge
(“AJ”) considered Mr. Rutila’s filings of TRs and ana­
lyzed them as alleged grievances under § 2302(b)(9)(A),
but not as alleged protected disclosures under
§ 2302(b)(8). It found that the filing of TRs did not con­
stitute protected activity under § 2302(b)(9)(A). The
Board also found that even if the filings of TRs had

4a
constituted protected activities, the agency had shown
by clear and convincing evidence that Mr. Rutila would
have been removed absent the TR filings.1 The AJ also
found that Mr. Rutila had not exhausted several of his
other alleged protected disclosures before OSC. Mr. Ru­
tila did not petition the Board for review of this deci­
sion. The AJ’s decision became the final decision of the
Board.
Mr. Rutila appeals directly to this court. We have
jurisdiction under 5 U.S.C. § 7703 and 28 U.S.C.
§ 1295(a)(9).
Discussion
I
A Board decision must be affirmed unless it is “(1)
arbitrary, capricious, an abuse of discretion, or other­
wise not in accordance with law; (2) obtained without
procedures required by law, rule, or regulation having
been followed; or (3) unsupported by substantial evi­
dence.” 5 U.S.C. § 7703(c). Substantial evidence is “evi­
dence that a reasonable mind may take as sufficient to

1 § 2302(b)(8)(A) defines protected disclosures as those made
by an employee “which the employee . . . reasonably believes evi­
dences—any violation of any law, rule, or regulation, or gross mis­
management, a gross waste of funds, an abuse of authority, or a
substantial and specific danger to public health or safety.” Section
2302(b)(9)(A)(i) defines a protected activity as “the exercise of
any appeal, complaint, or grievance right granted by any law,
rule, or regulation—with regard to remedying a violation of
[§ 2302(b)](8).”

5a
establish a conclusion.” Grover v. Office ofPers. Mgmt.,
828 F.3d 1378,1383 (Fed. Cir. 2016).
The WPA prohibits an agency from taking a per­
sonnel action in retaliation for any whistleblowing
“disclosure” or activity. 5 U.S.C. § 2302(b)(8)-(9). An
employee must show by a preponderance of the evi­
dence that he made a protected disclosure or partici­
pated in a protected activity (such as an appeal) that
contributed to a personnel action against him. See
Whitmore v. Dep’t of Labor, 680 F.3d 1353, 1367 (Fed.
Cir. 2012). “If the employee establishes this prima facie
case of reprisal for whistleblowing, the burden of per­
suasion shifts to the agency to show by clear and con­
vincing evidence that it would have taken ‘the same
personnel action in the absence of such disclosure.’ ” Id.
at 1364 (quoting 5 U.S.C. § 1221(e)). The Board may
consider whistleblowing charges only if the claimant
first presented them “with reasonable clarity and pre­
cision” to OSC. Serrao v. Merit Sys. Prot. Bd., 95 F.3d
1569, 1577-8 (Fed. Cir. 1996); see also 5 U.S.C.
§ 1214(a)(3).
II
Mr. Rutila argues that the Board erred in finding
that he had jurisdiction only under 5 U.S.C.
§ 2302(b)(9) and not § 2302(b)(8). He argues that, at the
very least, his initial TR against Mr. Henderson consti­
tuted a protected disclosure under § 2302(b)(8)(A). That
section defines protected disclosures as those made by
an employee “which the employee . . . reasonably

6a
believes evidences—any violation of any law, rule, or
regulation, or gross mismanagement, a gross waste of
funds, an abuse of authority, or a substantial and spe­
cific danger to public health or safety.” Section
2302(b)(9)(A)(i) defines a protected activity as “the ex­
ercise of any appeal, complaint, or grievance right
granted by any law, rule, or regulation—with regard to
remedying a violation of [§ 2302(b)](8).”
We need not decide whether the Board erred in
finding that the filing of a TR by an employee on his
own behalf is more appropriately analyzed under
§ 2302(b)(9) because the Board under the WPA has ju­
risdiction over individual rights of action under both
sections, and Mr. Rutila fails to demonstrate how he
was prejudiced by the Board limiting its consideration
to § 2302(b)(9). Under the current version of the WPA,
“an employee may file an IRA, and the Board will have
jurisdiction over the appeal, if the prohibited personnel
action is due to a disclosure covered by either
§ 2302(b)(8)—i.e. retaliation for whistleblowing—or
§ 2302(b)(9)(A)(i)—i.e. retaliation for exercising a
grievance right related to whistleblowing.” Miller v.
Merit Sys. Prot. Bd., 626 F. App’x 261, 266 (Fed. Cir.
2015).2 We see no error in the Board’s decision to

2 Mr. Rutila argues that the Board failed to consider his as­
sistance to two other trainees in their submission of TRs as pro­
tected disclosures and that these activities were not covered by
§ 2302(b)(9). Though we do not decide whether an employee’s fil­
ing of a TR on his own behalf is a protected disclosure, we see no
error in the Board’s failure to treat his assistance in others’ TR
filings as protected disclosures under 5 U.S.C. § 2302(b)(8).

7a
proceed under § 2302(b)(8) with respect to his TR ac­
tivities.
Mr. Rutila also argues that the Board erred in not
finding his TRs to constitute protected activity in its
analysis under 5 U.S.C. § 2302(b)(9). The Board found
that Mr. Rutila’s TRs did not constitute protected ac­
tivity because they “contained no reference to any legal
authority and could not reasonably have been inter­
preted as raising any concern of illegality.” J.A. 6. The
Board also emphasized that “the mere filing of a TR is
routine in these circumstances.” J.A. 9. We also need
not decide if the TR appeal is a protected activity under
§ 2302(b)(9), because we conclude that the Board’s
finding that the FAA “would have terminated the ap­
pellant absent his filing of the TRs to challenge his test
scores,” J.A. 7, is supported by substantial evidence.
The Board concluded that the FAA had shown by
clear and convincing evidence that it would have ter­
minated Mr. Rutila even if the filings of TRs were con­
sidered to be protected under § 2302(b)(9). The Board
followed the approach described in Carr v. Social Secu­
rity Administration, 185 F.3d 1318, 1323 (Fed. Cir.
1999). The first Carr factor is “the strength of the
agency’s evidence in support of its personnel action.”
Id. The Board highlighted the agency’s evidence that
Mr. Rutila in fact “misguided an airplane and mishan­
dled the situation” during his third evaluation. J.A. 89. The Board also pointed out that failing the course
normally leads to removal.

8a
The second Carr factor is “the existence and
strength of any motive to retaliate on the part of the
agency officials who were involved in the decision.”
Carr, 185 F.3d at 1323. The Board found that “no evi­
dence of any retaliatory animus against the appellant”
because “the mere filing of a TR is routine.” J.A. 9. In
addition, Mr. Henderson’s declaration indicated that
“he was unaware that the appellant had filed a TR.” Id.
Similarly, the Board found that “[t]here is no evidence
that either manager [who reviewed Mr. Rutila’s other
six TRs subsequent to his third evaluation] intended to
retaliate against the appellant by declining to award
him additional points.” Id.
The third and final Carr factor is “any evidence
that the agency takes similar actions against employ­
ees who are not whistleblowers but who are otherwise
similarly situated.” Carr, 185 F.3d at 1323. There ap­
pears to be no evidence of similar actions against em­
ployees who are not whistleblowers. “[T]he absence of
any evidence relating to Carr factor three can effec­
tively remove that factor from the analysis.” Whitmore,
680 F.3d at 1374. The Board did point out that the fact
that other trainees who filed TRs against Mr. Hender­
son passed the training, which “undercuts [Mr. Ru­
tila’s] claim that by filing TRs he was terminated from
his position.” J.A. 9.
We conclude that the Board’s analysis of the Carr
factors and its finding that the FAA “would have ter­
minated the appellant absent his filing of the TRs to
challenge his test scores,” J.A. 7, were supported by
substantial evidence.

9a
III
Mr. Rutila argues that the Board should have con­
sidered two other protected disclosures in addition to
the TRs: (1) a trainee feedback submission he submit­
ted after this third evaluation and (2) his in person ap­
peal to two supervisors regarding his third evaluation.
The Board found that neither of these purported dis­
closures was exhausted before OSC. “The test of the
sufficiency of an employee’s charge of whistleblowing
to OSC is the statement that the employee makes in
the complaint to OSC .. . , not the employee’s subse­
quent characterization of that statement in his appeal
to the Board.” Serrao, 95 F.3d at 1577.
The OSC complaint does not mention his trainee
feedback form. And it mentions the in-person appeal
not as a protected disclosure, but as a “decision” of the
FAA not to allow him to retake the third evaluation.
The Board thus did not err in declining to consider
these disclosures.
IV
Mr. Rutila argues that the Board improperly de­
nied his discovery and document subpoena motions.
“Procedural matters relative to discovery and eviden­
tiary issues fall within the sound discretion of the
board and its officials.” Curtin v. Office of Pers. Mgmt.,
846 F.2d 1373,1378 (Fed. Cir. 1988) “If an abuse of dis­
cretion did occur with respect to the discovery and ev­
identiary rulings, in order for petitioner to prevail on
these issues he must prove that the error caused

10a
substantial harm or prejudice to his rights which could
have affected the outcome of the case.” Id. at 1379.
On August 27, 2018, Mr. Rutila filed a motion for
a subpoena which sought documents and other evi­
dence from Mr. Henderson. On October 24, 2018, Mr.
Rutila moved to compel discovery of certain interroga­
tory responses and documents from the FAA. The AJ
denied Mr. Rutila’s discovery motions.
Mr. Rutila does not explain how a contrary ruling
would have affected the outcome. The AJ found that
there was no evidence that the agency had “failed or
refused to provide the appellant with any relevant or
material evidence.” J.A. 2635-36.3 The AJ’s decision to
deny these motions was thus not an abuse of discre­
tion.
V
Mr. Rutila argues that he was deprived of his right
to a hearing. On October 25,2018, four days before the
scheduled hearing with the Board, Mr. Rutila moved
for a postponement on the ground that he did not have
adequate time to prepare and the AJ had not yet ruled
on his two discovery motions. On October 26,2018, the
AJ conducted a telephone conference, which was sum­
marized on the record. The summary indicated that
3 To the extent Mr. Rutila’s motion for issuance of a subpoena
to Mr. Henderson can be read to be eliciting testimony in addition
to documentary evidence, there was likewise no prejudice because
the FAA had planned to call Mr. Henderson as a witness at the
hearing.

11a
Mr. Rutila “withdrew his request for a hearing.” J.A.
2632.
Mr. Rutila argues that he “felt coerced into agree­
ing” to waive his hearing during the telephone confer­
ence with the AJ because, absent a postponement, he
“could not reasonably prepare for a hearing” that was
to take place two days after the conference, and had
“not even received a decision on his motion for a sub­
poena or motion to compel discovery” until the tele­
phone conference. Appellant’s Br. 58-60. Mr. Rutila
failed to preserve his objection to the denial of his mo­
tion to postpone by foregoing his right to a hearing.
AFFIRMED
COSTS
No costs.

12a
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILA, IV,
Appellant,

DOCKET NUMBER
DC-1221-18-0474-W-l

v.
DATE: December 20, 2018
DEPARTMENT OF
TRANSPORTATION,
Agency.
Harold E. Rutila. IV. Fenton, Michigan, pro se.
Armando Armendariz. Fort worth, Texas, for the
agency.
Joann Putnam. Esquire, Des Moines, Washington,
for the agency.
BEFORE
Kasandra Robinson Styles
Administrative Judge
INITIAL DECISION
INTRODUCTION
On April 23,2018, Harold E. Rutila, IV filed an in­
dividual right of action (IRA) appeal with the Board in
which he alleged that the agency retaliated against
him by terminating him from the FG-2152-01 position
of Air Traffic Control Specialist with the Federal Avia­
tion Administration (FAA) because he filed several
Technical Reviews (TRs) challenging his test scores on
exams during an Initial Tower Cab Training. See Ap­
peal File (AF), Tab 1. The Board has jurisdiction over

13a
this appeal pursuant to 5 U.S.C. §§ 1214(a)(3), 1221(a),
(e) (West 2007).
Because the appellant withdrew his request for a
hearing, this decision is based on the parties’ written
submissions. For the reasons discussed below, the ap­
pellant’s request for corrective action is DENIED.
JURISDICTION
The following facts are undisputed. On February
16,2016, the appellant was appointed to the agency as
an Air Traffic Control Specialist, FG-2152-01, on a
temporary appointment, not to exceed March 15, 2017
with the FAA. The appellant’s official duty station was
Washington, DC but he was on temporary duty at the
Mike Monroney Aeronautical Center in Oklahoma
City, Oklahoma, attending Initial Tower Cab training
to remain employed by the FAA.
As part of his training, the appellant was required
to take a series of tests and evaluations. In May 2016,
Dan Henderson administered and graded the appel­
lant’s first evaluation. On May 23, 2016, the appellant
filed a technical review (TR) to challenge his score on
his first evaluation. As a result of the TR, he regained
one point and passed his evaluation. The appellant
passed his second evaluation. Michael Taylor adminis­
tered a third evaluation. The appellant received a score
of 15%. That score lowered the appellant’s overall
training score and he ultimately could not pass the In­
itial Tower Cab training. The appellant challenged his
third evaluation by filing six TRs. The agency denied

14a
the TRs and terminated the appellant from his posi­
tion, effective May 25, 2016. On June 30, 2016, the ap­
pellant filed a complaint with the Office of Special
Counsel (OSC) in which he alleged that his termina­
tion amounted to retaliation for filing the TRs. On Feb­
ruary 16, 2018, OSC terminated its investigation into
the appellant’s allegations. On April 22, 2018, the ap­
pellant filed the instant IRA with the Board.
During a preliminary status conference on June
28,2018,1 informed the parties that the appellant had
established jurisdiction over this appeal and was enti­
tled to his requested hearing because he had raised a
non-frivolous allegation that he had exhausted his ad­
ministrative remedies with OSC and raised a nonfrivolous allegation that exercised an appeal, com­
plaint, or grievance right, amounting to protected ac­
tivity pursuant to 5 U.S.C. § 2302(b)(9)(A), when on
May 23, 2016, he filed a TR of Dan Henderson’s grad­
ing of his first evaluation with the FAA during Initial
Cab Tower training.1
I also found that the appellant satisfied the
knowledge and timing test as he alleged that Mr. Hen­
derson was aware of the TR of his first evaluation, and
the appellant was terminated from his position merely
1 In his prehearing submission, the appellant refers to mak­
ing protected disclosures. However, there is no evidence that any
of his purported disclosures were exhausted before OSC. The only
issue he raised were the TRs. Consequently, during a telephonic
status conference, I informed the parties that this IRA will be
evaluated under 5 U.S.C. § 2302(b)(9)(A) and not under 5 U.S.C.
§ 2302(b)(8). AF, Tab 50.

15a
two days after he filed the first TR. I further deter­
mined that the termination was properly exhausted
before OSC and satisfied the definition of a covered
personnel action under 5 U.S.C. § 2302(a).
ANALYSIS AND FINDINGS
The appellant is required to establish his reprisal
for whistleblowing claim by preponderant evidence. He
must establish that: (1) he engaged in protected activ­
ity described under 5 U.S.C. $ 2302(b)(9)(A)(i). (B). (C).
or (D): and (2) protected activity was a contributing fac­
tor in the agency’s decision to take or fail to take a per­
sonnel action as defined bv 5 U.S.C. § 2302(a). See 5
U.S.C. § 1221(e)(1): Webb v. Department of the Interior,
122 M.S.P.R. 248, 1 6 (2015). If the appellant makes
out a prima facie case, the agency is given an oppor­
tunity to prove, by clear and convincing evidence, that
it would have taken the same personnel action in the
absence of the protected disclosure. 5 U.S.C. § 1221(e)(2)
(West 2007); Fellhoelter v. Department of Agriculture,
568 F.3d 965, 970-71 (Fed. Cir. 2009); Webb, 122
M.S.P.R. 248,16.
In determining whether agency has shown by
clear and convincing evidence that it would have taken
the same personnel action in the absence of whistle­
blowing, relevant factors include strength of agency’s
evidence in support of its personnel action, existence
and strength of any motive to retaliate on part of
agency officials who were involved in the decision, and
any evidence that agency takes similar actions against

16a
employees who are not whistleblowers but who are
otherwise similarly situated. 5 U.S.C.A. §§ 1221(e)
(West 2007); see Carr v. Social Security Administra­
tion, 185 F.3d 1318,1322 (Fed. Cir. 1999). In Whitmore
v. Department of Labor, 680 F.3d 1353 (Fed. Cir. 2012),
the Court addressed the clear and convincing standard
and determined that the Board may not exclude or ig­
nore evidence necessary to adjudicate the whistle­
blower retaliation claim, but rather must consider all
of the relevant evidence. The Court found that the
Board cannot decide whether the agency has carried
its burden by “clear and convincing evidence” by look­
ing only at the evidence that supports the conclusion
reached. Id. at 1367-68. It explained that “[e]vidence
only clearly and convincingly supports a conclusion
when it does so in the aggregate considering all the
pertinent evidence in the record, and despite the evi­
dence that fairly detracts from that conclusion.” Id. at
1368. The Court noted that “[i]t is error for the MSPB
to not evaluate all the pertinent evidence in determin­
ing whether an element of a claim or defense has been
proven adequately.” Id. In considering the existence
and strength of any motive to retaliate on the part of
agency officials who were involved in the decision, the
Board must consider evidence of other officials not di­
rectly involved but who may have influenced the deci­
sion by a retaliatory motive. Id. at 1370.
I note that, on his initial appeal form, the appel­
lant raised harmful procedural error and unlawful dis­
crimination as affirmative defenses. However, it is well
settled that such claims are not within the Board’s

17a
jurisdiction in an IRA appeal as IRA appeals are lim­
ited to claims involving whistleblower retaliation. Agoranos v. Department of Justice, 119 M.S.P.R. 498, ‘ft 18
(2013). Thus, I will not adjudicate these claims in the
instant action.
The appellant proved bv preponderant evidence that
he exhausted his administrative remedies before OSC.
Here, the record demonstrates that the appellant
filed an OSC complaint on June 30, 2016 and alleged
that he was removed from his position for filing several
TRs. AF, Tab 1, Attachment (OSC Complaint). On Jan­
uary 29, 2018, OSC informed the appellant that it
made a preliminary determination to close its inquiry
into his allegations. AF, Tab 1, Attachment (OSC Pre­
liminary Determination Letter). By letter dated Feb­
ruary 16, 2018, OSC advised the appellant that it had
terminated its inquiry and that he had 65 days to seek
corrective action from the Board. AF, Tab 1, Attach­
ment (OSC Closure Letter).
As noted in the Order and Summary of the Tele­
phonic Status Conference, I found that the appellant
exhausted his administrative remedies and estab­
lished jurisdiction over his appeal. AF, Tab 50. Based
on this record, I find the appellant has demonstrated
by preponderant evidence that he exhausted his ad­
ministrative remedies before OSC with regard the
whistleblowing claims at issue in this appeal.

18a
The appellant did not engage in protected activity un­
der 5 U.S.C. § 2302(b)(9)(A)(i) bv filing TRs.
The appellant must show that he engaged in pro­
tected activity over which the Board has jurisdiction.
For the activity to be qualified as “protected,” the ap­
pellant must show by preponderant evidence that the
matter he disclosed in his “protected activity” was one
which a reasonable person, in his position, would be­
lieve evidenced any of the stipulations identified in 5
U.S.C. § 2302(b)(8). Chavez v. Department of Veterans
Affairs, 120 M.S.P.R. 285, <1 18 (2013). In this instance,
the appellant must prove that he exercised any appeal,
complaint, or grievance right that is granted by any
law, rule, or regulation that seeks to remedy violations
of specific acts. 5 U.S.C. § 2302(b)(9)(A)(i). See Mudd v.
Department of Veterans Affairs, 120 M.S.P.R. 365, % 7
(2013) (the specific type of “protected activity” over
which the Board has jurisdiction is limited to that ac­
tivity that seeks to remedy an- alleged violation of 5
U.S.C. § 2302(b)(8)). Thus, in order for the TR to
amount to “protected activity", the appellant must
show that he filed his TR for the purpose of remedying
a violation of law, rule, or regulation; or for remedying
gross mismanagement, a gross waste of funds, an
abuse of authority, or a substantial and specific danger
to public health or safety. See 5 U.S.C. §§ 2302(b)(8),
(b)(9)(A)(i).
The appellant alleges that he engaged in protected
activity by filing a TR following his first evaluation in
the simulator, on May 23, 2016. In that TR, he com­
plained that Dan Henderson, his evaluator, scored him

19a
incorrectly when he used specific phraseology during
his run in the simulator. The appellant argued that the
guidance given to the trainees was that the specific
phraseology he had used was permitted, and that he
should therefore be credited with extra points. AF, Tab
53, Exhibit 1.
The Mike Monroney Training Academy offered all
trainees instructions on filing a TR. See AF, Tab 38, Ex­
hibits 1, 2. The TR process was designed to offer a
trainee an avenue to dispute a grade received from an
evaluator. Training evaluators were instructed to ad­
vise trainees to file a TR appeal if they were not satis­
fied with their evaluation grade for review. Id. The
specific challenge to his test score in the appellant’s
first TR does not give rise to the conclusion that he was
attempting to remedy what he reasonably regarded as
a violation of a law, rule, or regulation; or what he rea­
sonably regarded as gross mismanagement, a gross
waste of funds, an abuse of authority, or a substantial
and specific danger to public health or safety. AF, Tab
53, Exhibit 1. It contained no reference to any legal au­
thority and could not reasonably have been interpreted
as raising any concern of illegality. I find that a rea­
sonable person would find the language the appellant
used in the TR inadequate to support a conclusion that
he was attempting to remedy illegal actions, or remedy
gross mismanagement, a gross waste of funds, an
abuse of authority, or a substantial and specific danger
to public health and safety. See Mudd, 120 M.S.RR.
365, SI 7. I further note that there is no evidence that
the other six TRs the appellant filed immediately

20a
preceding his termination, contained any reference to
a violation of law, rule or regulation, gross manage­
ment, a gross waste of funds, an abuse of authority, or
a substantial and specific danger to public health and
safety. AF, Tab 38, Exhibit 5. This is supported by the
letter he wrote to the Honorable Daniel Coats, his local
Congressman, in which he challenged the scoring pro­
cess that was utilized to terminate him from his posi­
tion. The letter did not contain any references to a
violation of law, rule or regulation, gross management,
a gross waste of funds, an abuse of authority, or a sub­
stantial and specific danger to public health and safety.
AF, Tab 53, Exhibit 3.
Consequently, absent any evidence that the TRs
the appellant filed amounted to protected activity, I
must find that he has failed to establish his retaliation
for whistleblowing activity by a preponderance of the
evidence.
The agency established bv clear and convincing evi­
dence that it would have terminated the appellant ab­
sent his filing of the TR’s to challenge his test scores.
Even if the appellant had established his claim by
preponderant evidence, I would still deny his request
for corrective action because the agency has estab­
lished by clear and convincing evidence that it would
have taken the same actions absent his filing of the
TRs. 5 U.S.C. § 1221(e)(2) (West 2007); see Fellhelter v.
Department of Agriculture 568 F.3d 965, 970-71 (Fed.
Cir. 2009). In determining whether an agency has

21a
shown by clear and convincing evidence that it would
have taken the same personnel action in the absence
of whistleblowing, the Board will consider the follow­
ing factors: (1) the strength of the agency’s evidence in
support of its action; (2) the existence and strength of
any motive to retaliate on the part of the agency offi­
cials who were involved in the decision; and (3) any ev­
idence that the agency takes similar actions against
employees who are not whistleblowers but who are
otherwise similarly situated. Carr v. Social Security
Administration, 185 F.3d 1318,1323 (Fed. Cir. 1999).
The agency’s evidence demonstrates that, during
his training, the appellant received four exam scores of
100 that were valued only 1% of his total grade. He re­
ceived a score of a 96.24 that was valued at only 5% of
his total grade; another score of 85 that was valued at
15% of his total grade; two 30% valued scores, one 79
and a 15. AF, Tab 53, Exhibit 7. The appellant needed
19.36 final points to pass the entire training course
and he only scored 15 points. As a result, the appellant
was mathematically eliminated by 4.36 points.
The appellant’s third evaluation was a life case
scenario of a normal air traffic control setting that was
both difficult and compounding. The appellant mis­
guided an airplane and mishandled the situation
within other airplanes in the vicinity, which led to mul­
tiple point deductions. In his Summary of Findings, Mr.
Ward stated:

22a
I have reviewed all of our documentation regard­
ing Mr. Rutila’s second (third) Performance As­
sessment run on Local Ground. Based on the
written documentation, I can say that Mr. Rutila’s
run was in trouble almost from the very beginning.
With the very first two IFR departures, Mr. Rutila
failed to provide proper IFR separation, resulting
in his only sixteen (16) point error. The third IFR
departure sat at the approach end for over eight
minutes waiting to depart and should have re­
sulted in a five point “Delay” error which the eval­
uator documented on the worksheet but not did
not document on the grade form. The aircraft that
Mr. Rutila claims departed the airspace and then
returned was actually a VFR inbound from the
southwest requesting two “touch and go’s” fol­
lowed by a full stop landing. Mr. Rutila worked
this aircraft (N9726Z) into a pattern for runway
28L, but had to send the aircraft around to avoid
another aircraft Mr. Rutila had cleared for takeoff
from the same runways. I don’t know what Mr. Ru­
tila intended to do with N9726Z after that, but I
do know that the computer accurately followed all
of his instructions with regard to this aircraft. . .
AF, Tab 53, Exhibit 8. The appellant used the TR pro­
cess to contest his grades on all of his evaluations just
as hundreds of trainees had done in the past. The in­
tent of the TR process is to offer impartiality and ob­
jectivity in the grading process. The appellant’s first
TR resulted in Mr. Ward awarding him one point, but
there were no points justified on his subsequent TRs.
Further, the TR instructions also provide guid­
ance on trainees who have been “mathematically

23a
eliminated". Initial Cab Tower Training is an incredi­
bly intense and difficult training and failing the course
is a normal procedure for removal. Thus, the mere fil­
ing of a TR is routine in these circumstances and I find
no evidence of any retaliatory animus against the ap­
pellant for using the TR procedure to contest his
scores. Additionally, according to Mr. Henderson’s
sworn declaration, he was unaware that the appellant
had filed a TR. See AF, Tab 53, Exhibit 9. The appellant
has asserted that, because Mr. Henderson was in the
same room monitoring another student’s evaluation,
he must have influenced his evaluator, Mr. Taylor.
However, I find no evidence to support this claim. The
evidence demonstrates that Mr. Taylor was the sole
grader and there’s no evidence that Mr. Taylor had any
knowledge that the appellant had filed a TR against
Mr. Henderson. AF, Tab 53, Exhibit 11. Moreover, the
appellant filed six subsequent TRs that Mr. MacNeill
and Mr. Ward reviewed and investigated. There is no
evidence that either manager intended to retaliate
against the appellant by declining to award him addi­
tional points.
Finally, the appellant argues that other trainees
filed TRs against Mr. Henderson and passed the Initial
Cab Tower Training. This claim seems to undercut his
claim that by filing TRs he was terminated from his
position. It appears the TR practice is routine and an
accepted practice and other than the appellant’s bare
assertion, there is simply no evidence that the agency
retaliates against trainees who file TRs.

24a
Consequently, for all of the reasons discussed
above, I find that the appellant has failed to prove by
preponderant evidence that he engaged in protected
activity by filing several TRs. Absent evidence of any
protected activity I am unable to find that the TRs
were a contributing factor in agency’s termination ac­
tion. Nevertheless, I find the agency has proven by
clear and convincing evidence that it would have ter­
minated the appellant even if he did not file any TRs
challenging his test scores. Therefore, I find the appel­
lant’s request for corrective action must be DENIED.
Decision
The appellant’s request for corrective action is DE­
NIED.
FOR THE BOARD:

/S/
Kasandra Robinson Styles
Administrative Judge

NOTICE TO APPELLANT
This initial decision will become final on January
24. 2019. unless a petition for review is filed by that
date. This is an important date because it is usually
the last day on which you can file a petition for review
with the Board. However, if you prove that you received
this initial decision more than 5 days after the date of
issuance, you may file a petition for review within 30
days after the date you actually receive the initial de­
cision. If you are represented, the 30- day period begins
to run upon either your receipt of the initial decision

25a
or its receipt by your representative, whichever comes
first. You must establish the date on which you or your
representative received it. The date on which the ini­
tial decision becomes final also controls when you can
file a petition for review with one of the authorities dis­
cussed in the “Notice of Appeal Rights” section, below.
The paragraphs that follow tell you how and when to
file with the Board or one of

26a
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILA, IV,
Appellant,

DOCKET NUMBER
DC-1221-18-0474-W-l

v.
DEPARTMENT OF
TRANSPORTATION,
Agency.

DATE: November 14, 2018

ORDER DENYING THE APPELLANT’S
MOTION FOR CERTIFICATION OF
INTERLOCUTORY APPEAL
On November 5,2018, the appellant filed a motion
for certification of interlocutory appeal regarding my
various orders and rulings. An interlocutory appeal is
an appeal to the Board of a ruling made by an admin­
istrative judge during the processing of the case. 5
C.F.R. §§ 1201.91-.93 (2016). The Board’s regulations
at 5 C.F.R. § 1201.92 provide that an administrative
judge will certify a ruling for interlocutory review only
if the ruling involves an important issue of law or pol­
icy about which there is a substantial ground for dif­
ference of opinion and an immediate ruling will
materially advance the completion of the proceedings,
or the denial of an immediate ruling will cause undue
harm to a party or the public. McCarthy u. Interna­
tional Boundary and Water Commission, 116 M.S.P.R.
594, 'll 18 (2011); Robinson v. Department of the Army,
50 M.S.P.R. 412,418 (1991). The Board will not reverse

27a
an administrative judge’s denial of request for certifi­
cation absent an abuse of discretion. Id.
I find no basis to grant the appellant’s motion
based on the facts and circumstances presented by this
appeal. The appellant has not demonstrated that the
ruling involves an important issue of law or policy
about which there is a substantial ground for differ­
ence of opinion and an immediate ruling will materi­
ally advance the completion of the proceedings, or the
denial of an immediate ruling will cause undue harm
to a party or the public. Moreover, I find the appellant’s
motion amounts to a disagreement with my interpre­
tation of the evidence he presented, which is not a
ground to grant his motion for certification of interloc­
utory review. See Weaver v. Department of the Navy, 2
M.S.P.R. 129, 133-34 (1980), review denied, 669 F.2d
613 (9th Cir. 1982). I therefore DENY the appellant’s
motion to certify interlocutory review.
FOR THE BOARD:

/S/
Kasandra Robinson Styles
Administrative Judge

28a
Note: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
HAROLD E. RUTILA, IV,
Petitioner
v.

DEPARTMENT OF TRANSPORTATION,
Respondent
2019-1712
Petition for review of the Merit Systems Protec­
tion Board in No. DC-1221-18-0474-W-1.
ON PETITION FOR PANEL REHEARING
(Filed Jun. 5, 2020)
Before Dyk, Taranto, and Stoll, Circuit Judges.
Per Curiam.
ORDER
Petitioner Harold Edward Rutila, IV filed a peti­
tion for panel rehearing.
Upon consideration thereof,
It Is Ordered That:

29a
The petition for panel rehearing is denied.
The mandate of the court will issue on June 12,
2020.

For the Court
June 5. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

30a
19-1712
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
HAROLD E. RUTILA IV,
Petitioner
v.
DEPARTMENT OF TRANSPORTATION,
Respondent
PETITION FOR REVIEW FROM THE
MERIT SYSTEMS PROTECTION BOARD
IN DC-1221-18-0474-W-l
A. J. KASANDRA ROBINSON STYLES
PETITION FOR PANEL REHEARING
OF PETITIONER
Dated: May 19, 2020 Respectfully submitted,
KALBIAN HAGERTY LLP
/s/ Eric L. Siegel
Eric L. Siegel
(D.C. Bar No. 427350)
888 17th Street NW,
Suite 1000
Washington, D.C. 20006
esiegel@kalbianhagerty.com

31a
Phone: (202) 223-5600
Facsimile: (202) 223-6625
Counsel for Petitioner
Harold E. Rutila, IV
CERTIFICATE OF INTEREST
Pursuant to Federal Circuit Rule 47.4, counsel for
Petitioner hereby files this Certificate of Interest as fol­
lows:
(1) The full name of the party represented in the case
by the counsel is Harold E. Rutila, IV.
(2) The name of the real party in interest is Harold E.

Rutila, IV.
(3) There is no need for a corporate disclosure state­

ment because Petitioner is a natural person.
(4) No law firm appeared for Petitioner in the lower
tribunal; Petitioner appeared pro se. There is no
other counsel other than the undersigned who is
expected to appear in this Court.
(5) There are no other cases known to counsel to be

pending in this or any other court or agency that
will directly affect or be directly affected by this
Court’s decision in the pending appeal.

32a
[i] TABLE OF CONTENTS
Table of Authorities................................................

m

Argument.................................................................

1

I.

BECAUSE OF PRO SE PETITIONER’S
PENDING MOTION TO COMPEL, HIS
REQUESTED HEARING POSTPONE­
MENT BASED ON INADEQUATE OP­
PORTUNITY TO PREPARE, AND THE
BOARD’S PERSISTENCE THAT HE
CONSIDER SETTLEMENT, THE BOARD
VIOLATED HIS RIGHTS WHEN IT
PRESSURED HIM TO WAIVE HIS
HEARING WITHOUT BEING FULLY IN­
1
FORMED ......................................................
II. BECAUSE RUTILA WAS PREJUDICED
BY THE BOARD’S SUMMARY DENIAL
OF HIS MOTION TO COMPEL, RE­
MAND IS PROPER TO COMPLETE
4
THAT DISCOVERY.....................................
III. ON THE MERITS, THE BOARD ERRED
IN FINDING AGAINST RUTILA ON HIS
PRIMA FACIE CASE AND THE
AGENCY’S CASE........................................ 10
A. Rutila Met The Legal Requirements
For Protected Activity Under The
Whistleblower Protection Act.............. 11
B. Rutila Presented Credible Evidence To
Establish That Henderson, The Al­
leged Retaliator, Had Knowledge Of
His Protected Activity Sufficient To
Meet The Knowledge-Timing Test To
Satisfy His Prima Facie Burden.......... 12

33a
C. Rutila Presented Evidence To Under­
mine The FAA’s Heavy Burden Of
Proof That It Would Have Terminated
His Employment Absent His Protected
Activity................................................... 14
15
Conclusion..................................................
16
[ii] Proof of Service...................................
Certificate of Service...............................

16

Certificate of Compliance - Word Count

16

Certificate of Compliance - Confidential Words . 16
17
Addendum Containing Court’s Opinion
[iii] TABLE OF AUTHORITIES
Aka v. Wash. Hosp. Ctr.,
156 F.3d 1284 (D.C. Cir. 1998).....................

8

Carr u. Social Security Administration,
185 F.3d 1318 (Fed. Cir. 1999)..................... 6, 8,15
Conant v. Office of Personnel Management,
79 M.S.P.R. 148 (1998).................................

2

Curtin v. Office of Personnel Management,
846 F.2d 1373 (Fed. Cir. 1988).....................

4

Frampton v Dep’t of Interior,
811 F.2d 1486 (Fed. Cir. 1987).....................

1

Graves v. U.S. Postal Service,
106 M.S.P.R. 224, 2007 M.S.P.B. 171 (2007)

2

McBurney v. OPM,
39 M.S.P.R. 126 (1988).................................

1

Miller v. DOJ,
842 F.2d 1252 (Fed. Cir. 2016).....................

13

34a
Pariseau v. Department of the Air Force,
113 M.S.P.R. 370 (2010).............................

1,2, 3, 4

Phillips v. Dept, ofAir Force,
71 M.S.P.R. 381 (1996)...............................

1

Pignataro v Dep’t of Veterans Affairs,
104 M.S.P.R. 563 (2007).............................

2

Reeves v Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000)....................................

7,8

Rusin v Dep’t of Treasury,
92 M.S.P.R. 298 (2002)...............................

11

[iv] Rutila v. Department of Transportation,
3,11,12,14
ECF 39 at 9 (February 10, 2020)
Sanofi-Aventis Deutschland GmbH v. Glenmark
Pharms., Inc.,
748 F.3d 1354 (Fed. Cir. 2014).........................

8

Siman v. Department ofAir Force,
80 M.S.P.R. 306 (1998).....................................

3

Staub v. Proctor Hosp.,
562 U.S. 411 (2011)..........................................

13

St. Mary’s Honor Center v. Hicks,
509 U.S. 502 (1993)..........................................

8

Wagner v. United States,
365 F.3d 1358 (Fed. Cir. 2004).........................

13

White v. Gov’t Printing Office,
108 M.S.P.R. 355 (2008)...................................

5,6

STATUTES
5 U.S.C. § 7701(a.

)5

5 U.S.C. § 7703(c)

8

35a
5 U.S.C. § 7701(a)(1)....

1

5 U.S.C. § 2302(b)(9)(A)

10

5 U.S.C. § 2302(b)(9)....

11

5 C.F.R. § 1201.51(c)....

1

5 C.F.R. § 1201.73(d)(3)

5

5 C.F.R. § 1201.73(d)(4)

5

[1] ARGUMENT
I.

BECAUSE OF PRO SE PETITIONER’S
PENDING MOTION TO COMPEL, HIS RE­
QUESTED HEARING POSTPONEMENT
BASED ON INADEQUATE OPPORTUNITY
TO PREPARE, AND THE BOARD’S PER­
SISTENCE THAT HE CONSIDER SETTLE­
MENT, THE BOARD VIOLATED HIS
RIGHTS WHEN IT PRESSURED HIM TO
WAIVE HIS HEARING WITHOUT BEING
FULLY INFORMED

Under 5 U.S.C. § 7701(a)(1), an appellant has a
fundamental right to a hearing. Frampton u. Dep’t of
Interior, 811 F.2d 1486, 1488, 1489 (Fed. Cir. 1987).
That right cannot be effectively waived unless it is un­
equivocal after being fully informed of adjudicatory re­
quirements and options. Pariseau v. Department of the
Air Force, 113 M.S.P.R. 370, 373-374 (2010).
The Board Administrative Judge (“AJ”) summar­
ily stated in her Prehearing Order that Petitioner,
Harold Rutila (“Rutila”), waived his hearing right
but failed to document any explanations given to

36a
substantiate that the waiver was informed. Appx2632.
If prehearing conference statements are to be relied
upon to establish a hearing waiver, the conference
should be documented to establish that all adjudica­
tory requirements and options were discussed. See
McBurney v. OPM, 39 M.S.P.R. 126, 130-31 (1988);
Phillips v. Dept, of Air Force, 71 M.S.P.R. 381, 383—84
(1996) (remanding case to properly explain, with refer­
ence to prehearing conference, basis for conclusion that
hearing was waived). That did not happen here.
Pursuant to 5 C.F.R. § 1201.51(c), Rutila filed on
October 25, 2018, a motion to postpone the hearing for
good cause based on inadequate time to prepare. He [2]
spent 40 hours during the previous week reviewing
newly produced documents and preparing a 241-page
detailed motion to compel (including exhibits) and prehearing submissions. Appx2569. He stated:
I would be severely prejudiced by having a
hearing on October 29th, 2018. I hold a full­
time job and have no representation. The
workload imposed on me to prepare for a hear­
ing this soon in light of the information I am
lacking would be, in no uncertain terms, un­
bearable.
Appx2571.
The Board has made clear:
An appellant before the Board has the right to
withdraw his request for a hearing. Graves v.
U.S. Postal Service, 106 M.S.P.R. 224, P 4,
2007 M.S.P.B. 171 (2007); Conant v. Office of

37a
Personnel Management, 79 M.S.P.R. 148, 150
(1998). However, there is a strong policy in fa­
vor of granting an appellant a hearing on the
merits of his case, and therefore withdrawal
of a hearing request must come by way of
clear, unequivocal, or decisive action. Id. Fur­
ther, the decision to withdraw a hearing
request must he informed, i.e., the appel­
lant must be fully apprised of the rele­
vant adjudicatory requirements and
options, including the right to request a
postponement or continuance of the hear­
ing, or dismissal of the appeal without
prejudice to its timely refiling. Id.
Pariseau, 113 M.S.P.R. at 373-374 (emphasis added)
(remanding and ordering hearing where AJ did not
give pro se litigant adjudicatory options); Graves v. U.S.
Postal Service, 102 M.S.P.R. 224, 228 (2007) (remand­
ing based on failure to memorialize what occurred dur­
ing teleconference when appellant sought to withdraw
hearing request); Pignataro v Dep’t of Veterans Affairs,
104 M.S.P.R. 563, 568 (2007) (remanding for hearing
where no written waiver in the record and [3] judge’s
comments were so abbreviated that it was impossible
to ascertain whether he “fully apprised [appellant] of
the relevant adjudicatory requirements and options in
her case”). The Board has considered this hearing
waiver issue sua sponte, although the appellant had
not specifically challenged the AJTs finding, and found

38a
no hearing waiver. Siman v. Department of Air Force,
80 M.S.P.R. 306, P 6 (1998)1.
In this case, given delays caused by the FAA in re­
sponding to legitimate discovery requests and open is­
sues days before the hearing, Rutila requested a
continuance on October 25 after filing his motion to
compel and prehearing submissions. At the October 26
prehearing conference, the AJ denied Rutila’s request
for hearing postponement prior to deciding the motion
to compel and did not follow Board precedent in offer­
ing him a continuance to prepare for the hearing.
Pariseau, 113 M.S.P.R. at 374. Instead, he was given a
Hobson’s choice to either go to the hearing in three
days (October 29) ill prepared, given the new docu­
ments to review which were produced days earlier and
witness examinations to prepare, or accept the AJ’s in­
vitation to go into mediation to continue settlement
discussions [4] and submit to a briefing schedule. The
AJ advised him to “sincerely consider” the FAA’s set­
tlement offer given that “agency actions are rarely re­
versed in IRAs.” He felt pressured and acquiesced to
1 The FAA argued in its Federal Circuit brief (ECF 30 at 13)
that Petitioner did not challenge the Prehearing Order’s accu­
racy, so he waived it. As a pro se litigant, how would he know
what to challenge regarding the AJ’s obligations to inform him of
his rights and options? He objected to denial of his continuance
request. Moreover, the Order gave 5 days to challenge the Order,
but the hearing was in 3 days. This Court opined that Rutila
waived his objection to postponement denial by waiving his hear­
ing right. Rutila v. Department of Transportation, ECF 39 at 9
(February 10, 2020)(attached hereto). If waiver was not informed,
then the objection was not waived either. The Court should ad­
dress waiver sua sponte.

39a
the AJ’s admonishment to consider the FAA’s settle­
ment proposal and elected briefing. Settlement was his
focus and not the ramifications of a hearing waiver.
The AJ’s conference summary also does not docu­
ment what she advised Rutila that made his waiver
informed, just like the pro se appellant in Pariseau.
There is no record that he was fully explained the con­
sequences of waiving his hearing right and his options.
The Board’s strong policy favors granting him a hear­
ing under these circumstances.
II.

BECAUSE RUTILA WAS PREJUDICED BY
THE BOARD’S SUMMARY DENIAL OF HIS
MOTION TO COMPEL, REMAND IS PROPER
TO COMPLETE THAT DISCOVERY

Petitioner is mindful of the Court’s limited power
to review a Board AJ’s decision regarding discovery
matters. Curtin v. Office ofPersonnel Management, 846
F.2d 1373, 1378-79 (Fed. Cir. 1988). The AJ’s decision
denying Rutila’s motion to compel will be overturned
only where an abuse of discretion is clear and harmful.
Id. “If an abuse of discretion did occur with respect to
the discovery and evidentiary rulings, in order for pe­
titioner to prevail on these issues he must prove that
the error caused substantial harm or prejudice to his
rights which could have affected the outcome of the
case.” Id. at 1379.
[5] A review of Rutila’s motion to compel, the AJ’s
summary denial with no explanation, and the evidence
required in this IRA appeal confirms that the AJ’s

40a
denial caused him substantial prejudice which could
have affected the outcome. The denied discovery re­
quests were directed at the FAA’s heavy burden of
proof, namely that it would have taken the same action
absent his protected activity.
First, the AJ failed to follow Board rules by requir­
ing Rutila to file his motion within six days of receiving
hundreds of pages of documents from the FAA within
days of the hearing. 5 U.S.C. § 7701(a) states: “Appeals
shall be processed in accordance with regulations pre­
scribed by the Board.” (Emphasis added.) Rules gov­
erning discovery provide that appellants shall have 10
days to file a motion to compel. 5 C.F.R. § 1201.73(d)(3).
Rutila received the FAA’s final production on October
18, so his motion would be due (Monday) October 29.
Per MSPB rules, discovery shall be completed no
later than the prehearing conference (October 26). 5
C.F.R. § 1201.73(d)(4). How could discovery be com­
pleted if there was a pending motion to compel that
required resolution? This improper truncation of dead­
lines prejudiced Rutila.
The Board has overturned an AJ’s decision to deny
an appellant sufficient opportunity to pursue a motion
to compel. White v. Gov’t Printing Office, 108 M.S.P.R.
355, 359 (2008) (AJ abused discretion by setting more
restrictive deadline to file motion to compel and by
denying motion because “discovery has concluded”). [6]
The appellant in White sought disciplinary records of
comparators to support his affirmative defense of race
discrimination to attack an adverse personnel action.

41a
The Board concluded that, because the motion was cal­
culated to lead to discovery of admissible evidence, the
appellant was prejudiced in his ability to present his
affirmative defense. Id. at 359.
Throughout Rutila’s motion to compel, he stated
that he had insufficient time to examine the FAA’s re­
cent document production. See, e.g., Appx 1169, 1181.
The FAA had months to prepare and provide re­
sponses, but he only had days to review and object, fil­
ing a motion under severe time pressure.
A review of Rutila’s motion and his discovery re­
quests further demonstrate that denial of the motion
prejudiced his ability to establish retaliatory motive
and to attack the FAA’s evidence. The documents re­
quested address the factors set forth in Carr v. Social
Security Administration, 185 F.3d 1318,1323 (Fed. Cir.
1999).
The AJ’s denial of Rutila’s motion regarding Doc­
ument Request No. 10 was most harmful to his ability
to marshall proof. That request sought “any records
concerning . . . evaluation of Harold Rutila . . . in­
cluding] transcripts and error logs from the Adacel
Tower Simulation System.” The request sought, among
other documents, his confiscated notes from the third
evaluation scenario that he failed, dozens of flight
strips, and any transcript or recording of the flight sim­
ulation to corroborate the six Technical Reviews
(“TRs”) that he filed. Appxll71. Pointing [7] to exhibits
attached to his motion, Rutila confirmed that the FAA

42a
denied destroying those records. Yet, it did not produce
them. Id.
Rutila filed his OSC complaint on June 30, 2016
and his EEO complaint on July 11,2016. Consequently,
the FAA was on notice to preserve evidence. FAA Acad­
emy Supervisor and Panel Reviewer Ronald Ward
(“Ward”) provided sworn answers to interrogatories in
Rutila’s companion EEO matter in July 2017, where he
stated - in direct contradiction to his declaration
in the Board appeal - that his “research” disclosed
that a plane abnormally made three 360-degree turns
as a result of a computer malfunction!2 Appx 1174,
2726. Rutila was entitled to obtain that “research” to
substantiate his claims on appeal and to attack the
FAA’s assertion that it would have terminated him ab­
sent his protected activity.3 Appx 1174.
That discovery also would have impugned the
credibility of alleged “independent” Panel Reviewers
Ward and MacNeill, creating a strong inference of a
2 See Appxll35 (Ward’s panel findings conflict with his EEO
sworn interrogatory answers). Ward admitted that if the simula­
tor equipment fails, the scenario will be restarted. Appx 1292.
However, if it did fail, as stated in his EEO interrogatory answers,
then why was the scenario not restarted in Rutila’s case? An in­
ference of retaliation is permissible. Was Ward hiding an abuse
of discretion or protecting Rutila’s FAA evaluators (Henderson
and Taylor) for failing to carry out their jobs correctly after he
challenged Henderson’s conduct on May 23, 2016 and his over­
bearing interference on May 24?
3 The FAA claimed that there were no responsive documents
in 2018, despite Ward’s 2017 admission that records existed.
Appxl 175.

43a
cover-up for retaliation to impose agency liability. See
Appxll75. See Reeves v [8] Sanderson Plumbing
Prods., Inc., 530 U.S. 133, 147 (2000) (“In appropriate
circumstances, the trier of fact can reasonably infer
from the falsity of the explanation that the employer is
dissembling to cover up a discriminatory purpose”). If
a “suspicion of mendacity”4 combined with other evi­
dence is sufficient to defeat summary judgment in a
civil rights retaliation case, actual mendacity by Ward
would certainly defeat a finding that “substantial evi­
dence” existed under 5 U.S.C. § 7703(c) to support the
AJ’s decision regarding the FAA’s burden of proof.
If the FAA has destroyed Ward’s “research” mate­
rials, then a spoliation instruction and adverse infer­
ence would be appropriate, further undercutting
“substantial evidence” to support the AJ’s decision.
Sanofi-Aventis Deutschland GmbH v. Glenmark
Pharms., Inc., 748 F.3d 1354,1361-1362 (Fed. Cir. 2014)
(upholding spoliation instruction by district court for
destruction of evidence in litigation).
That the FAA has refused to produce in Rutila’s
Board appeal sworn interrogatory answers from
agency officials with personal knowledge is also trou­
bling. Rutila provided evidence in his motion that
confirmed that many of the [9] FAA’s answers were
If ‘disbelief is accompanied by a suspicion of mendacity,’
. . . the likelihood of intentional discrimination is increased, per­
mitting the factfinder to infer discrimination more readily.” Aka
v. Wash. Hosp. Ctr., 156 F.3d 1284,1294 (D.C. Cir. 1998) (en banc)
(quoting St. Mary’s Honor Center v. Hicks, 509 U.S. 502, 511
(1993)).
4 «

44a
inaccurate or incomplete.5 Appx 1172, citing other
parts of his motion. Obviously, FAA counsel who signed
the answers cannot testify. Agency actions made the
interrogatory responses effectively unreliable and non­
binding and could not be used by Rutila to properly ex­
amine and potentially impeach witnesses. The AJ’s
denial of Rutila’s motion removed one discovery device
from his arsenal to pursue his appeal. Appxll72 (cit­
ing cases and MSPB Judge’s Handbook, requiring that
interrogatories be answered in writing under oath or
affirmation). It cannot be overstated that Rutila was
appealing pro se, doing his best to marshall evidence.
He was stymied by two FAA lawyers. The AJ’s failure
to hold the FAA accountable to produce binding, com­
plete evidence is no doubt prejudicial.

5 Most egregious was the contradictory evidence of Ward’s
July 2017 sworn interrogatory answers, which Rutila compared
against the FAA’s responses to his requests for admissions. Com­
pare Appxll73-1174; Appxl288-1294; Appx2726-2728; with
Appxll35, Appxll39 (Ward panel worksheet). Rutila was enti­
tled to receive Ward’s “research”, but the FAA refused to produce
it, and the AJ failed to compel it, causing Rutila prejudice.
Ward’s EEO interrogatory answers also conflict with his interrog­
atory answers in the Board appeal regarding computer malfunc­
tioning. Appxl291. The possible effect on the outcome of Rutila’s
appeal is clear because Ward rejected six TRs, claiming “evalua­
tor verses student observation.” Id. With evidence now corrobo­
rating three 360-degree turns, Rutila’s contentions are no longer
unappealable “observations.” The 5 TRs would have been upheld,
restoring 59 points to Rutila and precluding elimination from the
training program, even assuming one 16-point deduction on the
grade sheet remained uncontested. He would have scored 84%
and not 15% on the evaluation.

45a
Rutila also requested documents concerning eval­
uations of fellow trainees where Henderson and Taylor
intervened to rectify computer simulation errors that
[10] arose, as well as documents regarding other train­
ees who were permitted to retake a scenario or were
reinstated after failing their FAA training evaluations.
Appxll79-1180; Appxl245 (FAA declined to answer).
The FAA refused to produce that information, and the
AJ agreed solely based on “the reasons provided by the
agency in its motion in opposition.” Appx2636. Both
categories of documents are relevant and material to
assess whether the FAA met its burden and how simi­
larly situated trainees were treated (the third Carr fac­
tor).
Rutila requested documents pertaining to rules,
policies or practices that governed how evaluators
were to handle computer simulation malfunction. This
is relevant because if FAA policies dictated that Rutila’s evaluation scenario had to be restarted under the
circumstances, see, e.g., Appxl73, but Henderson and
Taylor failed to do so, it would lend credence to the in­
ference that there was a retaliatory motive behind that
failing. The Agency declined to produce anything in re­
sponse, and the AJ did not compel them to do so.
The AJ’s denial of Rutila’s motion was prejudicial,
requiring reversal.

46a
III. ON THE MERITS, THE BOARD ERRED IN
FINDING AGAINST RUTILA ON HIS PRIMA
FACIE CASE AND THE AGENCY’S CASE
This Court observed that the Board made findings
in denying Rutila’s appeal - only two of which are per­
tinent here in this Petition: (1) in analyzing Rutila’s
TRs as alleged grievances under 5 U.S.C.
§ 2302(b)(9)(A), the AJ found that filing of TRs did not
constitute protected activity under the WPA; and (2)
even if the TRs had [11] constituted protected activity,
the agency had shown by clear and convincing evi­
dence that Rutila would have been removed absent the
TR filing. Rutila, ECF 39 at 3. Both findings are with­
out merit based on the evidence and rules of law gov­
erning WPA claims.
A. Rutila Met The Legal Requirements
For Protected Activity Under The Whis­
tleblower Protection Act
This Court did not address whether filing TRs is
protected activity because it affirmed the Board’s find­
ing that the FAA would have made the same decision
absent Rutila’s protected activity, as supported by
“substantial evidence.” Rutila, ECF 39 at 6.
The May 23, 2016 TR that Rutila filed specifically
cited FAA Order 7110.65 2-4-21 and 7110.65W 1-2-1.
Appx771. The FAA stipulated that Rutila’s alleged pro­
tected disclosure was based on these FAA Orders.
Appx0890, Appxl068. Lastly, Henderson claimed on
May 23 that Rutila’s pronunciation of an aircraft was

47a
a “rule,” so it supports a protected activity finding.
Appx0944. The Board has found that a “rule” covered
by the WPA includes a prescribed guide for action or
conduct, regulation or principle. Rusin v. Dep’t of Treas­
ury, 92 M.S.P.R. 298,306 (2002) (citation omitted). Rutila has met the requirements of 5 U.S.C. § 2302(b)(9)
as a matter of law because his TR was an appeal or
grievance of explicit FAA rule violations. Appx421,424
(students required to reference FAA rule violated); Rutila Opening Brief (ECF 17) at 13-14.
[12] B. Rutila Presented Credible Evi­
dence To Establish That Henderson,
The Alleged Retaliator, Had Knowledge
Of His Protected Activity Sufficient To
Meet The Knowledge-Timing Test To
Satisfy His Prima Facie Burden
The Board erred in finding a lack of retaliator
knowledge to support retaliatory animus (the second
Carr factor) because there was evidence, and reasona­
ble inferences to be drawn from that evidence, to sup­
port such knowledge. See Rutila, ECF 39 at 6-7.
The evidence demonstrates that, of the three (3)
TRs filed on May 23, 2016, all three were against
Henderson, the alleged retaliator, and all three were
overturned against him, challenging his competence as
an evaluator.6 The following day, after Rutila’s third
6 The Court noted the AJ’s finding that other trainees who
filed TRs against Henderson passed the training, “which ‘under­
cuts [Rutila’s] claim that by filing TRs he was terminated from
his position.” Rutila, ECF 39 at 7. Yet, Henderson had no

48a
performance evaluation — he successfully scored high
marks on the previous two evaluations - he challenged
the failing outlier score on multiple grounds, again cit­
ing FAA rule violations and rules taught in the pro­
gram. That his official evaluator was Michael Taylor
and not Henderson does not insulate the FAA from
WPA liability. As this Court acknowledged in its opin­
ion (Id. at 2) and the FAA admitted (Appx2661), Hen­
derson insinuated himself - contrary to FAA rules that
prohibit the same evaluator from evaluating a trainee
more than once (Appx782) [13] - and pressed his posi­
tions in light of Taylor’s apparent confusion during the
debrief session to influence the conclusion that Rutila
failed to perform to certain standards (Appx788). Ru­
tila countered that he was adhering to FAA rules, and
the computer malfunctioned during the evaluation.7
Under a cat’s paw theory of liability, Henderson’s par­
ticipation could substantiate Agency liability. Miller v.
DOJ, 842 F.2d 1252,1264 (Fed. Cir. 2016) (concurring),
citing Staub v. Proctor Hosp., 562 U.S. 411, 424 (2011).
Furthermore, contrary to Henderson’s declaration
in which he states that he did not know the May 23 TR
was overturned against him so he could not “retaliate”
against Rutila, FAA rules require that he sign off on
the previous day’s TR that Rutila won prior to being
placed in Rutila’s official records. Appx 1244-1245. An
opportunity to retaliate against others who filed on May 23.
Appxl93, 773-774. His opportunity to go after Rutila leaves open
an inference of retaliation.
7 See Appx780, Appx785, Appx788 (Rutila’s detailed recita­
tion of Henderson’s interference on May 24).

49a
agency is bound by its own rules and regulations. Wagner
v. United States, 365 F.3d 1358, 1361 (Fed. Cir. 2004).
Rutila also pointed out that he was told at the Academy
that evaluators are informed when a TR is ruled in a
trainee’s favor to avoid the trainee filing TRs on the
same matter in the future. Appx784. An inference can
be drawn that Henderson was made aware of the TR.
In addition, FAA rules require that the TR Panel
Reviewers interview the evaluator in deciding a TR re­
view. Appx426; Appx421 (FAA work instructions shall
[14] apply to all personnel in handling TRs). Conse­
quently, a reasonable inference can be drawn that Ward
and MacNeill interviewed Henderson on May 23.8 Ac­
cordingly, the knowledge-timing test applies to lead to
the conclusion that Rutila met his prima facie burden.
C. Rutila Presented Evidence To The
FAA’s Heavy Burden Of Proof That It
Would Have Terminated His Employ­
ment Absent His Protected Activity
Regarding the two managers (Ward and MacNeill)
who reviewed the six TRs challenging the outcome
8 Neither Ward nor MacNeill denied definitively that they
spoke with Henderson. Their near verbatim declarations merely
stated that they “did not recall” but then hedged by stating that
it was their “routine” to document if they interviewed the evalua­
tor. Appx2666, Appx2667. Given the mendacity of Ward in his
EEO sworn interrogatory answers, the veracity of those declara­
tions also is called into question. Henderson’s declaration likewise
states that he did not recall but offers speculation that he did not
speak with Ward and MacNeill. Appx2684-2685. The factfinder is
required to reject his speculation as inadmissible evidence.

50a
(.Rutila, ECF 39 at 7), Rutila highlighted serious cred­
ibility issues and contradictions under oath by Ward,
who was the lead manager who rejected Rutila’s TR
appeals. See, supra, note 5. Those contradictions cre­
ate an inference that they too participated in an effort
to silence Rutila because he filed multiple grievances
that challenged the failure of FAA evaluators to follow
applicable FAA rules and practices in administering
the program and problems with its computer simula­
tion equipment. On remand, Rutila should be given
the [15] opportunity to present this evidence to demon­
strate that the FAA cannot meet its burden of proof to
overcome WPA liability.
The third and final Carr factor could also militate
against the FAA if Rutila was permitted to present
comparator evidence and receive complete responses
to his document requests, which were the subject of his
denied motion to compel. He did present evidence that
the FAA kept at least one other trainee in the FAA pro­
gram who failed the course but who did not file TRs.
Appxll79. This raises the question whether Rutila
was eliminated because of his protected activity.
Combining the evidence highlighted in Rutila’s
opening brief to this Court (ECF 17 at 47) that com­
puter malfunction issues are fairly commonplace, with
the Ward EEO interrogatory answers that a malfunc­
tion took place on May 24, which, by Ward’s own ad­
mission, should have prompted a restart of the

51a
scenario,9 there are serious questions whether there
was “substantial evidence” to support the AJ’s finding
below that the FAA would have taken the same action
absent protected activity.
CONCLUSION
Rutila, as a pro se litigant, should have been given
the opportunity to present his best case at a hearing
on the merits, but he was prevented from doing so
based [16] on the compounding actions of the FAA and
Board below. Based on fairness, this Petition should be
granted, and the Court should reverse and remand.
PROOF OF SERVICE
I, Eric L. Siegel, hereby certify that, in accordance with
Administrative Order 20-01 issued on March 20,2020,
no hard copies were filed with the Clerk of the Court.
/s/ Eric L. Siegel
Eric L. Siegel
CERTIFICATE OF SERVICE
I, Eric L. Siegel, hereby certify that on this 19th day of
May, 2020,1 caused to be served by hand-delivery two
(2) copies of this Petition for Panel Rehearing on

9 There were four retakes or make-up slots available, so it
would not have caused the FAA any burden to allow Rutila a re­
test. Appx784.

52a
counsel for Respondent at her home address, which
was provided under condition of confidentiality.
/s/ Eric L. Siegel
Eric L. Siegel
CERTIFICATE OF COMPLIANCE WORD COUNT
I certify that the word count for this Petition for Panel
Rehearing is 3,845 words.

53a
UNITED STATES OF AMERICA MERIT
SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILAIV,
Appellant,

Docket No.
DC-1221-18-0474-W-1

v.

November 5, 2018

DEPARTMENT OF
TRANSPORTATION,
Agency.

Assigned to the
Honorable Kasandra
Robinson Styles

MOTION FOR CERTIFICATION
FOR INTERLOCUTORY REVIEW
Pursuant to 5 C.F.R. § 1201, Appellant Harold E.
Rutila IV respectfully moves the Board to certify its
October 26th, 2018 ruling concerning the dismissal of
two motions, the first to compel discovery, and the sec­
ond for a subpoena, for interlocutory review. The afore­
mentioned ruling involves important questions of law
or policy about which there is substantial ground for
difference of opinion. Additionally, an immediate rul­
ing on this matter will materially advance the comple­
tion of the proceeding. Finally, denial of an immediate
ruling will cause undue harm to Appellant; it would
permit a second bite at the apple for the Agency, in the
event it decides to disclose additional documents or
other evidence as authorized by the Order Closing the
Record, Dkt. 51.
At 12:08 P.M. Eastern Time today, Plaintiff sought
via email to discuss this motion with the Agency’s

54a
counsel, Mr. Armando Armendariz and Ms. JoAnn Put­
nam, but no response was received by the close of busi­
ness in all four major U.S. time zones. Appellant
received some correspondence concerning settlement,
but not any correspondence in response to his request
to discuss this motion.

BACKGROUND
Appellant filed a motion to compel discovery on
October 24th, 2018. Dkt. 39. The next day, Appellant
filed a motion for postponement of the hearing, based
in part on the reasoning that Appellant had not re­
ceived a complete discovery production from the
Agency. See Dkt. 46.
On October 26th, 2018, the parties and the Board
convened for a telephonic status conference, during
which Appellant was informed by Judge Styles that his
motion to compel discovery as well as his motion for a
subpoena were denied. This ruling was documented in
the Board’s status conference summary. See Dkt. 50.
Although it is not so documented, Appellant’s motion
for postponement of the hearing was also denied.
ARGUMENT
An interlocutory appeal is an appeal to the Board
of a ruling made by a judge during a proceeding. The
judge may permit the appeal if he or she determines
that the issue presented in it is of such importance to
the proceeding that it requires the Board’s immediate

55a
attention. § 1201.91. The judge will certify a ruling for
review only if the record shows that: (a) the ruling in­
volves an important question of law or policy about
which there is substantial ground for difference of
opinion; and (b) an immediate ruling will materially
advance the completion of the proceeding, or the denial
of an immediate ruling will cause undue harm to a
party. § 1201.92.
Certification is appropriate for the following rea­
sons:
1. The denial of Appellant’s motions involves
an important question of law or policy,
about which there is substantial ground for
difference of opinion.
The primary questions that arise from Appellant’s
motion to compel concern how federal laws and rules
concerning discovery apply in the context of an MSPB
appeal. Board rules refer to the Federal Rules of Civil
Procedure as “instructive, but not controlling.” This
raises specific questions about the propriety of the
Agency’s discovery responses, which do not comport to
any standards that are well established in the federal
courts. A specific question and perhaps the most im­
portant one at this juncture, is whether the Agency
should be required to submit interrogatory responses
that are signed under oath or affirmation.
As detailed in Appellant’s motion, the Board’s
Judges’ Handbook states that interrogatory responses
must be signed under oath or affirmation. The Federal

56a
Rules of Civil Procedure, and the Federal Rules of Ev­
idence concerning a respondents’ requirement to have
personal knowledge when testifying under oath, com­
port with the MSPB Judges’ Handbook in this regard.
Conversely, the Agency argues that it is not re­
quired to conform to the aforementioned standards be­
cause Board regulations do not explicitly require them
to. This is the same position that has thus far been
adopted by the Board in this IRA appeal. Judge Styles
ruled in favor of the Agency “for the reasons provided
by the agency in its motion in opposition.” Dkt. 50 at 5.
Since that position contradicts the Board’s own hand­
book and the established discovery rules of the federal
court, there is good reason to believe there is substan­
tial ground for a difference of opinion.
Appellant’s motion to compel discovery contains
arguments that are well-supported by the Board’s own
Judges’ Handbook, the Federal Rules of Civil Proce­
dure, and the Federal Rules of Evidence. There is wide­
spread support among the federal courts, and the
Board generally, that Appellant is correct to request
that the Board order the Agency to submit signed in­
terrogatory responses.
Additionally, the Board is permitting the parties
to “submit additional evidence and argument” by the
dates provided in the close or record order. See Dkt. 50
at 5. Appellant is significantly burdened in this regard
because the Agency is in the sole custody and control
of nearly all of the information concerning this case.
Discovery has ended in this IRA appeal. To the extent

57a
it has not, the Agency is not expected to produce any
more discovery to Appellant because all of its argu­
ments in opposition to Appellant’s motion to compel
discovery were found to be acceptable.
Some information that Appellant believes would
ultimately lend to the credibility of his arguments and especially to the strength of his arguments against
the Agency’s burdens in this matter — has not been pro­
duced. In other cases, the information has been pro­
duced with redactions that block crucial information
from those records. This is not to mention the fact that
Appellant has submitted sworn affidavits from their
own officials which contradict the Agency’s interroga­
tory responses.
With respect to Appellant’s motion for subpoena,
Judge Styles has ruled that it was denied because “The
appellant’s motion to compel did not address the
agency’s refusal to provide him with any documents or
other evidence identified in the subpoena request.”
However, the subject of the subpoena request was a re­
tired Agency employee, Mr. Dan Henderson. Aside
from records that the Agency could produce in discov­
ery during Mr. Henderson’s employment with the
Agency, the Agency has no legal obligation (or perhaps
even ability) to furnish responsive information that
Mr. Henderson had in his possession after his employ­
ment with the Agency. Insofar as the subpoena is con­
cerned, Mr. Henderson is treated as a third party
unaffiliated with the Agency. Since the Agency claims
it has received “factual” information from Mr. Hender­
son that it used to compile its discovery responses, and

58a
since the Agency had called upon Mr. Henderson to at­
tend the hearing in this IRA appeal, Appellant sought
Mr. Henderson’s records for review beforehand.
2. An immediate ruling will materially ad­
vance the completion of the proceeding.
An immediate ruling will materially advance the
completion of these proceedings because it would re­
solve a key question that is affecting the parties’ abil­
ity to narrow the issues in this IRA appeal.
Furthermore, it would allow the issues brought forth
in the IRA appeal to be resolved on the merits, based
on the documentation obtained from the Agency and/or
Mr. Henderson. In the event the Board agrees with Ap­
pellant, Appellant would be entitled to obtain more in­
formation, which would definitively allow for a
narrowing of the issues, specifically as they pertain to
Appellant’s “contributing factor” test and the Agency’s
“clear and convincing” burden.
The Agency’s requirement to submit interrogatory
responses that are signed under oath or affirmation
would also likely change the course of this IRA appeal.
Specifically, it is expected that, if the responses are
indeed required to be submitted under oath or affirma­
tion, the content of the responses would significantly
change. Such a change may cause the Agency to en­
hance any prospective settlement offers1, further
1 To date, Appellant has not received any formal settlement
offers from the Agency, although one is expected on November 9,
2018.

59a
expediting the resolution of this IRA appeal without
further judicial intervention.
3. The denial of an immediate ruling will cause
undue harm to Appellant.
The denial of an immediate ruling will cause un­
due harm to Appellant in that he will be permanently
denied the opportunity to resolve disputes with the
Agency’s discovery productions, despite that those dis­
putes are well founded. The same can be said about
Appellant’s inability to review any information in the
custody of Mr. Henderson that the Agency upon which
the Agency has relied to respond to Appellant’s discov­
ery requests or upon which it will rely in future briefs
before the close of the record. If these matters are re­
solved, they would likely lead to the production of doc­
uments and other evidence which further support
Appellant’s claims. A denial of an immediate ruling
would prevent Appellant from utilizing evidence he be­
lieves he is lawfully entitled to receive.
What the Agency produced is not sufficient in
form, such as interrogatory responses that lack signa­
tures; in substance, such as documents that contain
redactions rendering them almost unusable; or in its
conformity to established discovery requirements like
those contained in the Federal Rules of Civil Proce­
dure and those specified in the MSPB Judges’ Hand­
book.

60a
If the immediate ruling is denied, the Agency will
have the complete control to introduce new evidence
that it did not produce in discovery, but which may
have been responsive to Appellant’s discovery re­
quests. Furthermore, the Agency’s introduction of any
new evidence will prejudice Appellant because the
Agency would be able to hand-pick select portions of a
larger batch of documents, or other evidence, that only
supports their defense, while successfully concealing
the rest from the discovery process and from the Board,
despite that the remaining information might lend
more supportive towards Appellant’s claims. While
Appellant will have an opportunity to respond to new
evidence introduced before the close of the record,
§ 1201.59(c), Appellant will not be able to respond with
information that the Agency did not provide to him in
discovery.
If Appellant is denied the information he re­
quested, and elects to appeal any initial decisions in
this matter to the Board, this could again present the
Agency with an opportunity to take a second bite at the
apple, producing information it should have already
produced, but did not produce, in this discovery pro­
cess.

61a
CONCLUSION
Certification is appropriate in this case. For the
foregoing reasons, the Board should certify the ruling
for interlocutory appeal and review the denial of Ap­
pellant’s motion to compel discovery.
Respectfully submitted,
I declare under penalty of perjury under the laws of
the United States that the foregoing is true and cor­
rect.
Executed on
November 5, 2018
s/ Harold Edward Rutila IV
Harold Edward Rutila IV
12498 Woodhull Lndg
Fenton, MI 48430
h.rutila@gmail. com
(810) 845-3497
I hereby certify that I have submitted this document
through the MSPB e-Appeal system and all parties of
record have received a copy electronically.
s/ Harold Edward Rutila IV
Harold Edward Rutila IV
12498 Woodhull Lndg
Fenton, MI 48430
h. rutila@gmail .com
(810) 845-3497

62a
UNITED STATES OF AMERICA MERIT
SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILA, IV,
Appellant,

DOCKET NUMBER DC1221-18-0474-W-l
DATE: October 26, 2018

v.
DEPARTMENT OF
TRANSPORTATION,
Agency.

SUMMARY OF TELEPHONIC
STATUS CONFERENCE
On October 26,2018,1 conducted a telephonic sta­
tus conference with the appellant and the agency’s rep­
resentatives Armando Armendariz and Joann Putman.
This document summarizes the significant portions of
the conference. The parties are advised to carefully re­
view this order because, absent timely notice from a
party that this summary is incorrect, the appeal will
be limited to the issues described herein. During the
conference, the appellant withdrew his request for a
hearing. I will issue a separate order with a briefing
and closing of the record schedule.
Facts
The following facts are undisputed. On February
16, 2016, the appellant was appointed to the agency
as an Air Traffic Control Specialist, FG-2152-01, on a
temporary appointment, not to exceed March 15, 2017

63a
with the agency’s Federal Aeronautics Administration
(FAA). The appellant’s official duty station was Wash­
ington, DC but he was on temporary duty at the Mike
Monroney Aeronautical Center in Oklahoma City,
Oklahoma, attending Initial Tower Cab training to re­
main employed by the FAA.
As part of his training, the appellant was required
to take a series of tests and evaluations. In May 2016,
Dan Henderson administered and graded the appel­
lant’s first evaluation. On May 23, 2016, the appellant
filed a technical review (TR) to challenge his score on
his first evaluation. As a result of the TR, he regained
one point and passed his evaluation. The appellant
passed his second evaluation. Michael Taylor adminis­
tered a third evaluation. The appellant received a score
of 15%. That score lowered the appellant’s overall
training score to a point that he ultimately could not
pass the Initial Tower Cab training. The appellant
challenged his third evaluation by filing six TRs. The
agency denied the TRs and terminated the appellant
from his position, effective May 25, 2016. On June 30,
2016, the appellant filed a complaint with the Office
of Special Counsel (OSC) in which he alleged that his
termination amounted to reprisal for filing the TRs. On
February 16, 2018, OSC terminated its investigation
into the appellant’s allegations. On April 22, 2018, the
appellant filed the instant individual right of action
(IRA) with the Board.
During a preliminary status conference with the
parties on June 28, 2018,1 informed the parties that
the appellant had established jurisdiction over this

64a
appeal and was entitled to his requested hearing be­
cause he had raised a non-frivolous allegation that he
had exhausted his administrative remedies with OSC
and raised a non-frivolous allegation that exercised an
appeal, complaint, or grievance right, amounting to
protected activity pursuant to 5 U.S.C. § 2302(b)(9)(A),
when on May 23, 2016, he filed a TR of Dan Hender­
son’s grading of his first evaluation with the FAA dur­
ing Initial Cab Tower training.1
I also found that the appellant satisfied the
knowledge and timing test as he alleged that Mr. Hen­
derson was aware of the TR of his first evaluation, and
the appellant was terminated from his position merely
two days after he filed the first TR. I further deter­
mined that the termination was properly exhausted
before OSC and satisfies the definition of a covered per­
sonnel action under 5 U.S.C. § 2302(a).
Issues
At the hearing on the merits of the appellant’s
claim, he is required to establish his reprisal for whis­
tleblowing claim by preponderant evidence. He must
establish that: (1) he engaged in protected activity de­
scribed under 5 U.S.C. § 2302(b)(9)(A)(i), (B), (C), or (D);
and (2) protected activity was a contributing factor in
1 In his prehearing submission, the appellant refers to mak­
ing protected disclosures. However, there is no evidence that any
of his purported disclosures were exhausted before OSC. The only
issue he raised were the TRs. Consequently, I told the parties that
this IRA will be evaluated under 5 U.S.C. § 2302(b)(9)(A) and not
under 5 U.S.C. § 2302(b)(8).

65a
the agency’s decision to take or fail to take a personnel
action as defined by 5 U.S.C. § 2302(a). See 5 U.S.C.
§ 1221(e)(1); Webb v. Department of the Interior, 122
M.S.P.R. 248, 'll 6 (2015). If the appellant makes out a
prima facie case, the agency is given an opportunity to
prove, by clear and convincing evidence, that it would
have taken the same personnel action in the absence
of the protected disclosure. 5 U.S.C. § 1221(e)(2); Fellhoelter v. Department ofAgriculture, 568 F.3d 965,97071 (Fed. Cir. 2009); Webb, 122 M.S.P.R. 248, f 6.
In determining whether agency has shown by
clear and convincing evidence that it would have taken
the same personnel action in the absence of whistle­
blowing, relevant factors include strength of agency’s
evidence in support of its personnel action, existence
and strength of any motive to retaliate on part of
agency officials who were involved in the decision, and
any evidence that agency takes similar actions against
employees who are not whistleblowers but who are
otherwise similarly situated. 5 U.S.C.A. §§ 1221(e); see
Carr v. Social Security Administration, 185 F.3d 1318,
1322 (Fed. Cir. 1999). In Whitmore v. Department of La­
bor, 680 F.3d 1353 (Fed. Cir. 2012), the Court addressed
the clear and convincing standard. It found that the
Board may not exclude or ignore evidence necessary to
adjudicate the whistleblower retaliation claim, but ra­
ther must consider all of the relevant evidence. The
court found that the Board cannot decide whether the
agency has carried its burden by “clear and convincing
evidence” by looking only at the evidence that supports
the conclusion reached. Id. at 1367-68. It explained

66a
that “[e]vidence only clearly and convincingly supports
a conclusion when it does so in the aggregate consider­
ing all the pertinent evidence in the record, and despite
the evidence that fairly detracts from that conclusion.”
Id. at 1368. The court noted that “[i]t is error for the
MSPB to not evaluate all the pertinent evidence in de­
termining whether an element of a claim or defense
has been proven adequately.” Id. In considering the
existence and strength of any motive to retaliate on
the part of agency officials who were involved in the
decision, the Board must consider evidence of other of­
ficials not directly involved but who may have influ­
enced the decision by a retaliatory motive. Id. at 1370.
I note that, on his initial appeal form, the appel­
lant raised harmful procedural error and unlawful dis­
crimination as affirmative defenses. However, it is well
settled that such claims are not within the Board’s ju­
risdiction in an IRA appeal as IRA appeals are limited
to claims involving whistleblower retaliation. Agoranos v. Department of Justice, 119 M.S.P.R. 498, K 18
(2013). Thus, I will not adjudicate these claims in the
instant action.
Motion for Subpoena/Motion to Compel
On August 27, 2018, the appellant filed a motion
for a subpoena in which he was seeking documents and
other evidence for Dan Henderson. On October 3,2018,
I informed the parties that I did not rule on this motion
because it was unclear whether this was actually a mo­
tion to compel discovery as the agency had refused to

67a
provide the appellant with this information. The
agency indicated that the parties remained engaged in
the discovery process and were attempting to resolve
all ongoing discovery disputes. The appellant’s motion
to compel did not address the agency’s refusal to pro­
vide him with any documents or other evidence identi­
fied in the subpoena request. Thus, the subpoena
request is hereby denied.
On October 24, 2018, the appellant filed a motion
to compel discovery. On October 25, 2018, the agency
filed a motion in opposition to the appellant’s motion
to compel. I have reviewed both parties’ respective mo­
tions. For the reasons provided by the agency in its mo­
tion in opposition, I do not find the agency has failed or
refused to provide the appellant with any relevant or
material evidence in this matter during the discovery
process. I therefore deny the appellant’s motion to com­
pel discovery.
Settlement
If the parties settle this appeal, I will cancel the
hearing. The Board may retain jurisdiction to enforce
the terms of the settlement agreement if it is reduced
to writing and made part of the Board’s record. If not
made part of the record, the Board cannot enforce the
settlement agreement. See 5 C.F.R. § 1201.41(c)(2)
(2016). If the parties send me a copy of a signed settle­
ment agreement and I am not otherwise advised, I will
assume the parties want the agreement made part of
the record for enforcement purposes. In addition, if the

68a
appeal is settled, I will assume the appellant agrees to
dismiss the appeal unless I am otherwise advised. The
parties have waived the prohibition against ex parte
communications concerning settlement matters.
Corrections to this Summary
If this summary is inaccurate, a party must so no­
tify me in writing within five (5) days from receipt of
this Order. In the absence of any notice from the par­
ties, this summary will be final and will not be modi­
fied without a showing of good cause. Because the
appellant has withdrawn his request for a hearing, the
parties are hereby ORDERED to comply with the
deadlines outlined in the Close of Record Order by sub­
mitting additional evidence and argument by the dates
provided.
FOR THE BOARD:

/S/
Kasandra Robinson Styles
Administrative Judge

69a
UNITED STATES OF AMERICA MERIT
SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILAIV,
Appellant,

Docket No.
DC-1221-18-0474-W-1
October 25, 2018

v.
DEPARTMENT OF
TRANSPORTATION,
Agency.

Assigned to the
Honorable Kasandra
Robinson Styles

APPELLANTS MOTION FOR
POSTPONEMENT OF HEARING
Appellant Harold E. Rutila IV hereby moves the
Board to postpone the hearing in the above-referenced
case, currently scheduled for Monday, October 29th,
2018. Good cause exists in support of this Motion,
shown herein. The Agency opposes this Motion.
DECLARATION
I, Harold E. Rutila IV, hereby do declare as follows:
I am moving for a postponement of the hearing
date in this Appeal. The Agency opposes this Motion
because it believes it is prepared for the hearing, and
because, according to Agency’s counsel Ms. Putnam, I
should have filed my motion to compel on October 12th,
2018.

70a
I have two outstanding motions before the Board:
The first is a mot ion for a subpoena of former Agency
employee Dan Henderson, who is expected to testify as
a witness on behalf of the Agency. Dkt. 25.1 am seeking
Mr. Henderson’s personal records in advance of his
testimony at the hearing. As Mr. Henderson is no
longer employed at the Agency, much of the infor­
mation requested in the subpoena is not available
through traditional discovery with the Agency. How­
ever, because Mr. Henderson is the subject of my Ap­
peal, in the interest ofjustice, I should have a sufficient
opportunity to review his records well prior his testi­
mony.
The second outstanding motion is a motion to
compel discovery. Dkt. 39. The Agency was served
with a discovery request on July 30th, 2018. Through
a series of extensions, which I did not oppose in the
interest of good faith, the Agency had until October
18th, 2018 to produce discovery responses. The Agency
served objections and non-responses to me as late as
October 18th. The Board gave me six days to file a mo­
tion to compel, which is four days less than the regula­
tions provide. See Dkt. 37, compare with 5 C.F.R.
§ 1201.73(d)(3).
When I asked the Agency for their position on this
Motion, Agency’s counsel Ms. Putnam claimed I should
have filed a motion to compel on October 12th, 2018 six days prior to the end of their discovery period. This
position is not congruent with the events of this case.
Had I done that, I would have wasted both mine and
the Board’s time. The Agency would have been able to

71a
counter-argue that my motion was premature. And,
they would have been right; the Agency didn’t stop pro­
ducing discovery until October 18th. In light of those
deficient productions, I would have had to file yet an­
other motion to compel.
I cannot reasonably be ready for a hearing on Oc­
tober 29th, I have spent the last six days preparing and
filing a motion to compel. That motion was due on the
same date as my prehearing submissions. The total ex­
penditure of time I spent on those items combined is
approximately 40 hours across 6 days. During that
same period of time I also had to work. I am now left
with five more days to prepare for the hearing, without
even knowing what the result of my outstanding mo­
tions will be.
Furthermore, I am not the proximate cause of the
need to postpone the hearing. I have stated on the rec­
ord as early as August 23rd, 2018 that there were is­
sues obtaining discovery from the Agency. Dkt. 21. The
next day, Agency’s counsel Mr. Armendariz experi­
enced a family emergency, which ultimately resulted in
the case being delayed until October 10th. Discovery
was supposed to be finished on October 15th, but the
Agency moved to extend that deadline to October 18th.
That date has since passed, and there are still signifi­
cant discovery issues.
I do not believe the Agency can proffer any legiti­
mate, good-faith arguments that would support requir­
ing us to have the hearing on October 29th. This would
give the Board only two days to review and rule on the

72a
merits of my motion to compel. During this same pe­
riod of time, the Board must also rule on my motion for
a subpoena. This leaves me with only the weekend to
prepare my Appeal for hearing, not counting my time
that will be spent travelling to the hearing location. To
the extent I prevail on either of the outstanding mo­
tions, materials that may be produced as a result
would need to be added to my prehearing submissions.
This timeline does not account for any possibility that
the Agency could fail to comply with an order to pro­
duce discovery, which would entail another series of
motions.
I do not believe the Agency would be prejudiced
by a postponement. As of our latest conversations, the
Agency does not have any personnel travelling to the
physical hearing location in Washington, D.C. As far as
I am aware, I am the only one travelling there. The
Agency’s witnesses are from offices in Oklahoma City,
OK. I have been previously advised that the Agency’s
witnesses and attorneys will be joining the hearing
from a remote video connection in Oklahoma City. In
the case of a postponement, the Agency’s witnesses
would not be severely inconvenienced. At most, the
Agency’s attorneys, who are not in Oklahoma City, will
simply not travel to that location. The Agency would
then have additional time to prepare their side for the
hearing. I do not know how the Agency could argue it
would be prejudiced by this.
I would be severely prejudiced by having a hearing
on October 29th, 2018.1 hold a full-time job and have
no representation. The workload imposed on me to

73a
prepare for a hearing this soon in light of the infor­
mation I am lacking would be, in no uncertain terms,
unbearable. For these reasons, I ask that the Board
approve my request for a postponement of the hearing
date.
Respectfully submitted,
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Executed on
October 25, 2018
s/ Harold Edward Rutila IV
Harold Edward Rutila IV
12498 Woodhull Lndg
Fenton, MI 48430
(810) 845-3497
I hereby certify that I have submitted this document
through the MSPB e-Appeal system and all Parties of
record have received a copy electronically.
s/ Harold Edward Rutila IV
Harold Edward Rutila IV
12498 Woodhull Lndg

74a
UNITED STATES OF AMERICA MERIT
SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILAIV,
Appellant,

Docket No.
DC-1221-18-0474-W-1
October 24,2018

v.
DEPARTMENT OF
TRANSPORTATION,
Agency.

Assigned to the
Honorable Kasandra
Robinson Styles

APPELLANT’S MOTION TO
COMPEL DISCOVERY
Appellant Harold E. Rutila IV hereby moves to
compel discovery in accordance with 5 C.F.R.
§ 1201.73(c). This Motion is timely filed in accordance
with the Board’s October 22nd, 2018 Order Reschedul­
ing. Dkt. 37.
In accordance with 5 C.F.R. § 1201.73(c)(iii), Ap­
pellant has discussed the anticipated Motion with the
Agency and has made a good faith effort to resolve
these discovery disputes and narrow the areas of
disagreement. Some portions of Appellant’s discovery
have been resolved by those discussions. As a result,
not every interrogatory, request for production of doc­
uments (RPD), or request for admission is subject to
this Motion.

75a
BACKGROUND AND SUMMARY
Appellant first served the Agency with discovery
requests on July 30th, 2018. See Exhibit 1. Consistent
with 5 C.F.R. § 1201.73(d)(2), the Agency’s responses
were due on August 19th, 2018. Since that day is a
Sunday, the deadline was moved to Monday, August
20th, 2018. 5 C.F.R. § 1201.23. The Agency did not
comply with this deadline or seek an extension from
the Board.
Instead, on August 21st, 2018, Agency’s counsel
Mr. Armando Armendariz contacted Appellant seeking
to discuss a list of agreed-upon material facts. Agency’s
counsel insisted he had until August 30th, 2018 to
respond and affirmed that Agency lines of business
(LOBs) were working on the responses to Appellant’s
discovery requests. When asked, no date of production
was offered.
The next day, August 22nd, Appellant advised the
Agency that he could not agree to any facts until he
reviewed the Agency’s discovery production. Appellant
also advised the Agency’s counsel that the Agency’s
discovery responses were overdue. Agency’s counsel
suddenly changed course, stating “I will be sending
all responses today.” See Appellant’s Request for Ex­
tension of Time Exhs. 1-8 (Dkt. 21). At 9:15 RM. East­
ern Time, Appellant was served with a 14-page
discovery response consisting nearly entirely of objec­
tions. The document was authored by Agency’s coun­
sel. See Exhibit 2. It appeared to be an llth-hour
production, produced only as a result of Appellant’s

76a
prodding about the tardiness of the response, replete
with non-conformity to traditional discovery rules, in­
cluding the most obvious issue - a lack of signatures
anywhere.
A case suspension was eventually issued, effective
September 10th, 2018 through October 10th, 2018. Dkt
26. During the suspension, the Agency added another
attorney, Ms. Joann Putnam, to its defense. Dkt. 29.
The Agency also contacted Appellant, and the parties
attempted to rectify some discovery issues. Appellant
sent the Agency an overview of his issues, and the
Agency responded soon thereafter. See Exhibits 2, 3, 4.
The Agency’s general positions are (a) that it is not
required to submit to Appellant interrogatories signed
by officials or agents under oath or affirmation; (b) that
its objections are all proper according to Board rules;
and (c) that it will amend its objections to state them
with more specificity. See Exhibit 3.
Agency’s counsel Ms. Putnam advised the parties
and the Board during an October 3rd, 2018 telephonic
status conference that the Agency “stands by our ob­
jections.” This notwithstanding, the Agency subse­
quently submitted amended discovery responses twice,
which contained more objections and resulted in the
release of some responsive records, albeit with exten­
sive redactions. In some cases, records have significant
portions cut off through as a result of improper scan­
ning processes. See, e.g., Exhibit 19; compare with Ex­
hibit 18. Some responses were never produced.

77a
GENERAL ARGUMENTS
1. Appellant’s requests are proportional to the
needs of this Appeal.
The Agency has objected several times on grounds
that Appellant has made requests that are not “propor­
tional to the needs of the case.” See Appendix A; Exhib­
its 3, 4, 5, and 6. Appellant’s requests are not only
proportional, but the information required to respond
to them is almost entirely digitally stored. Appellant
has mainly requested information that is stored on
government information systems: class rosters, score
books, Technical Review Intake Forms, records from
his evaluations, and other materials which are stored
electronically. Most of the records the Agency did pro­
duce clearly indicate that they came from electronic
storage mediums such as the Agency’s KSN intranet
site, to which Agency officials with information about
this case have easy access. The extent to which Appel­
lant requested handwritten notes and tangible paper
documents is limited to those which he created himself
(such as his notepad from his evaluation), or handwrit­
ten notes taken during his termination by the witness­
ing HR representative (which were never produced).
2. Appellant disputes the content of all of the
Agency’s interrogatory responses and objec­
tions, except 5, 16, and 24, averring that the
responses still must be signed.
Appellant has very limited time to file this Mo­
tion and cannot offer an in-depth analysis of every

78a
discovery issue, but provides support for several spe­
cific objections herein, to the best of his ability given
his time frame. Appellant contends that the Agency
will essentially need to re-do nearly every interroga­
tory response should it be compelled to have officers
and/or agents sign the responses under oath. Appellant
contests the Agency’s responses and objections. Objec­
tions that are based around the pre-December 1, 2015
amendments to the federal rules (“not reasonably cal­
culated to lead to the discovery of admissible evidence,”
etc.) are not proper.
The Agency’s objections on grounds of vagueness
to terms and phrases in the common parlance - includ­
ing the terms “merit system principles,” “validated,”
“mitigation strategies,” and “duties,” - are completely
unfounded. See Appendix A at 3, 5, and 11.
In its response to Interrogatory 4, the Agency’s
distortion of the phrase “reasonable opportunity to
demonstrate improvement” such that the Agency
merely provides its purported position on “re-takes”
makes its response incomplete. See Id.
The Agency has released information in discovery
that essentially disproves the accuracy of its re­
sponses. In one such record, an email from Appellant’s
supervisor Ron Ward, Mr. Ward states that an em­
ployee named Ken Kurdziel and an office called AMA900 “is responsible for overseeing the Adacel equip­
ment.” See Exhibit 16. The Agency never interviewed
Mr. Kurdziel, anyone in the same capacity as Mr.
Kurdziel, or anyone from AMA-900 in response to

79a
Appellant’s discovery requests. See Appendix A at 1. As
many of the requests concern information about the
Adacel simulators, the Agency’s responses thereto are
insufficient.
Appellant has provided a compilation of each in­
terrogatory and the Agency’s responses thereto in Ap­
pendix A. Appellant did not have time to compile a
similar appendix for his requests for production of doc­
uments (RPDs) or requests for admission (RFA); how­
ever these (as well as the original interrogatories) are
available in Exhibits 3, 4, 5, and 6.
3. The Agency should be compelled to answer
Interrogatory 23, 24, and 25.
On August 22, 2018, the Agency released its first
response to Appellant. At that time, it was never
claimed that Appellant had exceeded his interrogatory
limit of 25 interrogatories. At that time, the Agency
“answered” or objected to all interrogatories. See Ex­
hibit 2. The Agency later claimed via electronic letter
that Appellant had asked 27 interrogatories, and that
it no longer needed to answer Interrogatories 24 and
25. Finally, on October 9th, 2018, the Agency released
an “amended” discovery response, claiming Appellant
had asked 28 interrogatories, and that the Agency
need not answer Interrogatories 23, 24, and 25. See
Exhibits 4, 5, and 6.
In its so-called amended responses, the Agency
claimed Interrogatory 9 and Interrogatory 10 were
compound interrogatories containing two and three

80a
subparts each, respectively; however, those interroga­
tories merely ask about details about the Agency’s
Performance Assessment (PA) and Technical Review
(TR) programs, which have always existed concur­
rently. Appellant disputes the agency’s characteriza­
tion that the interrogatories exceed the number
authorized. Appellant notes that the Agency asked him
four compound interrogatories — 13,17,20, and 24 — to
which he never objected. See Exhibit 11.
Because the Agency failed to assert this claim in
its first discovery response, it waived this objection.
Thus, the Board should compel the Agency to answer
them.
4. The Agency should be compelled to produce
information, even if it was produced under
the Freedom of Information Act (FOIA).
The Agency claims it cannot, or will not, produce
documents in response to RPD 10 that were allegedly
released to Appellant under the FOIA. See Exhibits 3,
4, 5, and 6. The ground for this claim is that requiring
the Agency to do so would be unnecessarily duplicative,
onerous, and/or is a vexatious litigation tactic.
The Agency’s argument is not that certain discov­
ery requests are duplicative because responsive mate­
rial already exists in in the Agency File, or that they
were already provided by Appellant in response to the
Agency’s discovery requests. The Agency’s argument is
that it does not need to produce certain items in dis­
covery because Appellant allegedly already obtained

81a
them under FOIA; however, whether the Agency has
complied with FOIA is not the case at bar.
The Agency has not pointed to a specific instance
where one of Appellant’s discovery requests duplicated
one of his prior FOIA requests. Appellant does not be­
lieve he duplicated any FOIA requests in his requests
for discovery. To the extent that there may be overlap
between FOIA- and discovery-requested information,
alleged compliance with FOIA does not absolve the
agency of its duty to properly respond to discovery re­
quests. A common legal framework is not shared be­
tween the FOIA and MSPB discovery regulations.
Appellant’s discovery requests are not duplicative
or onerous on the basis of Appellant having allegedly
requested or received the information under FOIA.
Therefore, the Board should find the Agency’s objection
on these grounds to be unacceptable.
5. The Board should find the Agency’s invoking
of “attorney/client privilege” and “attorney
work product” concerning emails that do not
involve any attorney evidence of discovery
non-compliance.
The Agency has invoked “attorney/client privilege”
and “attorney work product” on a number of records
released in response to RFP 13 and RFP 14. Appellant
reiterates that he does not have sufficient time to
examine these productions completely; however, a cur­
sory overview of them reveals the following significant
issues.

82a
In RFP 13, the Agency has attempted to redact
an email by Laurie Karnay, evidenced by a redaction
attempt that partially revealed Ms. Karnay’s custom
email signature. See Exhibits 13 and 14. Ms. Karnay is
a Freedom of Information Act Management Analyst
for the Agency. In other words, Ms. Karnay is not an
attorney. This email is therefore not subject to any such
privileges.
In another instance, the Agency claims the same
privileges in full redactions of an email from Wayne
Coley to Ronald Ward, Alethia Futtrell, and Jim
Doskow. At that time, based on information already in
the record, Mr. Coley was the staff manager of the FAA
Academy. Ronald Ward was Appellant’s supervisor.
Alethia Futtrell was Mr. Ward’s supervisor. And Jim
Doskow was AMA-500, responsible for the Air Traffic
Division of the FAA Academy. None of these employees
are attorneys. Thus, there are no privileges which ap­
ply here. The emails must be released in full. See Ex­
hibit 15.
Based on these very clear misapplications of
attorney/client privilege and attorney work product
privilege, which the Agency is using to prevent Appel­
lant from gaining access to information to which he is
lawfully entitled in discovery, Appellant believes it is
likely that most of the emails requested in these RPDs
are not subject to any privileges.
The Board should compel the Agency to release
the records which have no basis for an attomey/client
privilege or attorney work product privilege. In the

83a
alternative, Appellant requests an in-camera review of
those records.
6. The Board should find the Agency’s invoking
of “privacy-protected info” further evidence
of discovery non-compliance to RFPs 3,4,8,9,
and 16.
The Agency has been asked to produce records
that contain the names of individuals who were simi­
larly situated as Appellant when he was employed
with the Agency. Many records, such as those re­
quested in RFP 4, 8, and 9, were authored by the simi­
larly situated individuals themselves. See Exhibits 3,
4, 5, and 6. In response to those requests, the Agency
produced redacted records, basing those redactions
upon “privacy protected info (student identities and
signatures).” The Agency did not invoke the Privacy
Act, nor are such records Privacy Act protected. Per­
haps most perplexing about this production is that the
Agency redacted records authored by Appellant that
they have previously released in the Agency File again, citing “privacy.”
In the case of RFP 16, the Agency redacted the
names of trainees on a class scorebook. See Exhibit 17.
The record already demonstrates that one of those
trainees, Madeline Bostic, was not terminated despite
having failed her final evaluations. The Agency con­
tends any information about Ms. Bostic is “not helpful”
to the issues in this appeal. See Exhibits 3, 4, 5, and 6.
Whether the records are helpful or harmful to the

84a
Agency’s defense is not relevant. This discovery re­
quest is appropriately structured to obtain information
expected to prove that the Agency cannot satisfy its
burdens in this Appeal. See Motion at 16.
Contrast the aforementioned privacy redactions
with the Agency’s release of seemingly every United
States citizen who applied to the Agency’s 2016 Air
Traffic Control Specialist hiring announcement, pro­
duced in response to RFP 16. See, e.g., Exhibit 18. A
release of this nature demonstrates that the Agency is
acting arbitrarily in its compliance with Appellant’s
discovery requests.
In another matter, RFP 4, the Agency was asked
to produce copies of feedback submissions from train­
ees at the FAA Academy. See Exhibits 3, 4, 5, and 6.
The Agency produced summaries of trainees’ feedback,
which someone at the Agency categorized, but not the
original feedback submissions themselves. This re­
sponse, therefore, is incomplete.
The Board should compel the Agency to release
this information.
7. The Board should find Agency’s objections
on the basis of irrelevance evidence of dis­
covery non-compliance.
The Agency has objected dozens of times to Appel­
lant’s discovery requests on the basis of relevance “to
the issues in this appeal.” See Appendix A; Exhibits 3,

85a
4, 5, and 6. The Board should find these requests to be
unfounded.
In one example, RFP 10, the Agency has objected
to Appellant’s request for “any records concerning the
. . . evaluation of Harold Rutila . . . including] tran­
scripts and error logs from the Adacel Tower Simula­
tion System.” Appellant has personal knowledge of
two types of records that the Agency has failed to pro­
duce - his writing pad, and dozens of flight strips,
which are used in the Tower Simulation System by
trainees to help them keep track of the aircraft in
their training and evaluation scenarios. In RFA 14, the
Agency denies that it destroyed these records. See Ex­
hibits 3,4,5, and 6. Nevertheless, the Agency has failed
to provide them, despite that they are clearly respon­
sive to RFP 10.
8. The Board should compel the Agency to com­
ply with FED. R. CIV. P. 36(A)(4) with respect
to its answers to requests for admission
(RFAs).
Federal Rule of Civil Procedure 36(A)(4) states the
following with respect to answering RFAs: If a matter
is not admitted, the answer must specifically deny it or
state in detail why the answering party cannot truth­
fully admit or deny it. A denial must fairly respond to
the substance of the matter; and when good faith re­
quires that a party qualify an answer or deny only a
part of a matter, the answer must specify the part ad­
mitted and qualify or deny the rest. The answering

86a
party may assert lack of knowledge or information as
a reason for failing to admit or deny only if the party
states that it has made reasonable inquiry and that
the information it knows or can readily obtain is insuf­
ficient to enable it to admit or deny.
The Agency has submitted several answers to
RFAs which do not comport to this rule. The Agency’s
responses to RFAs 15 and 17 do not ascertain whether
the Agency made a reasonable inquiry, or that the in­
formation it knows or can readily obtain is insufficient
to enable it to admit or deny.
AGENCY MUST BE COMPELLED TO SUBMIT
DISCOVERY RESPONSES THAT CONFORM
TO CONVENTIONAL DISCOVERY RULES
1. The importance of signed interrogatory re­
sponses cannot be understated.
The Agency has submitted discovery responses
that are not only unsigned, but also which do not iden­
tify the agency official and/or agent making them, nor
assert under oath or affirmation that the responses are
even correct. A substantial amount of evidence exists
that confirms many of the Agency’s responses are inac­
curate and incomplete. See Motion at 9,10.
The Agency should be compelled to submit inter­
rogatory answers that are signed under oath or affir­
mation. Federal Rule of Civil Procedure 33(b) requires
that written answers to interrogatories must be
made under oath and signed by the person making
them. These rules represent conventional thought on

87a
acceptable procedures. 5 C.F.R. § 1201.72(a); see also
Special Counsel v. Zimmerman, 36 M.S.P.R. 274, 285
n.7 (1988).
Rule 602 of the Federal Rules of Evidence requires
“A witness may testify to a matter only if evidence is
introduced sufficient to support a finding that the
witness has personal knowledge of the matter.” The
Board has previously taken notice when parties failed
to comply with this rule when analyzing interrogatory
responses as evidence. See, e.g., Matson v. Office of
Personnel Management, 105 M. S.RR. 547 at 7. Fur­
thermore, the MSPB Judges’ Handbook states that
interrogatories must be answered in writing under
oath or affirmation. Id. at 35 (emphasis added).
The Agency’s first discovery response admits that
Agency’s counsel Mr. Armendariz authored the re­
sponses based on “substantive information” from but
four Agency officials. See Appendix A at 1. Subsequent
“amended” responses from the Agency are not substan­
tially different. However, neither Mr. Armendariz nor
Ms. Putnam has personal knowledge of any of the
events in Appellant’s Appeal. Mr. Armendariz’s recol­
lection and recital of this “substantive information”
from these officials is classic hearsay and, therefore,
inadmissible. See Fed. R. Evid. 602. See also Fed. R.
Evid. Aet. Viii. This will not, however, waive Appel­
lant’s ability to use the information provided against
the Agency in future proceedings before the Board.
Appellant’s interrogatories require a response
from an officer or agent of the Agency - not just a

88a
summary or boilerplate objection by Agency’s counsel.
The interrogatories are specifically targeted to garner
information relevant to the case in order that it is re­
solved on the merits. Responses must be provided by
Agency officials who have personal knowledge of the
matter. See Fed. R. Evid. 602.
When Appellant asked the Agency to conform to
these rules, the Agency’s counsellors incorrectly ar­
gued that the Board’s discovery rules do not require
any officers or agents to sign interrogatories. This re­
quest of Appellant is neither unreasonable nor unu­
sual. Information concerning who signed discovery
responses is important, as it will allow Appellant and
the Board to ascertain credibility of respondents and
the information they provide. Names of respondents
with their signatures will allow for a determination on
response admissibility.
2. The need for signed interrogatory responses
is demonstrated by examining the Agency’s
unsigned discovery responses against offi­
cials’ prior statements under oath.
The problem of the Agency’s non-conformity to
normal discovery rules is evident throughout its dis­
covery productions. In several instances, the Agency’s
answers to the requests contain statements that bla­
tantly contradict information from other sources.
The Agency claims employee Ronald Ward pro­
vided “substantive” and “factual” information in re­
sponse to Appellant’s discovery requests. See Appendix

89a
A at 1. It is therefore worth comparing the Agency’s
unsworn responses to RFA 10 and RFA 14 against
Mr. Ward’s sworn affidavit from July 7th, 2017, which
he submitted in support of the Agency’s defense in
Appellant’s concurrent EEO case. See Exhibits 3, 4, 5,
and 6. There is perhaps no clearer evidence of the
Agency’s discovery inadequacies than this:
RFA 10: Admit that the voice recognition
system of the TSS malfunctioned during Mr.
Rutila’s third evaluation, which the evaluator
did not take proper action to correct.
Agency’s Response; Denied.
RFA 14: Admit that an aircraft conducted
an extra 360 degree turn without permission
during Mr. Rutila’s third evaluation.
Agency’s Response: Denied.
Affidavit of Ronald Ward. EEO Com­
plaint 2016-26956-FAA-05. July 7th. 20171:
Research indicates that during the last couple
of minutes of the scenario an aircraft. . . did
make two additional 360 degree turns af­
ter Mr. Rutila had instructed it to make
one 360 turn. As the PA documentation re­
flects, these extra turns caused no negative
points for the employee in training, no other
1 This declaration was made “under penalty of perjury that
the foregoing statement is true, correct, and complete to the best
of [Mr. Ward’s] knowledge and belief.” Exhibit 7. Although Appel­
lant disputes the agency’s discovery responses, Appellant re­
serves the right to use responses received thus far, regardless if
later deemed inadequate, in support of his case and for challeng­
ing the Agency’s credibility.

90a
aircraft were impacted, and it caused no addi­
tional workload to Mr. Rutila.
Exhibit 7 at 2 (emphasis added).
Respecting RFA 10, if Appellant instructed an air­
craft to make one 360-degree turn, and it instead
made three 360-degree turns - the one Appellant in­
structed, plus two additional 360s - then this is a de
facto malfunction of the Tower Simulation System
(TSS). It is simply unacceptable for aircraft in this con­
text to make random 360s at will2. Mr. Ward’s sworn
affidavit proves an aircraft in Appellant’s evaluation
did just that - two times!
Furthermore, Mr. Ward’s sworn affidavit verifies
the existence of evidence that allowed him to con­
duct purported “research” that displayed the actions of
an aircraft in Appellant’s evaluation. However, no such
evidence describing the actions of any aircraft has
been produced to Appellant, despite that he requested
it. Any records, or the lack thereof, will impact Appel­
lant’s case. His aforementioned evaluation is a central
issue to the case. Even if evidence the Agency pos­
sesses is exculpatory or adverse to the Agency, it still
must be produced. With respect to the existence of
2 The Agency’s own Aeronautical Information Manual de­
scribes with precision the negative consequences of unexpected
360s: “If a pilot makes a 360 degree turn after obtaining a landing
sequence, the result is usually a gap in the landing interval and,
more importantly, it causes a chain reaction which may
result in a conflict with following traffic and an interrup­
tion of the sequence established by the tower ... control­
ler.” Id. at 4-3-5. (Emphasis added).

91a
records, Mr. Ward’s affidavit contradicts additional dis­
covery responses:
RPD 10:
Produce any records concerning the May 24,
2016 evaluation of Harold Rutila and Andrew
Koski, which was administered by Michael
Taylor, Dan Henderson, Sandra Laminack,
and another unidentified remote pilot opera­
tor (RPO). This request includes transcripts
and error logs from the Adacel Tower Simula­
tion System.
Excerpt of Agency’s Response to RPD 10;
. .. Objection on the basis, also, that there are
no such responsive documents (i.e. transcripts
and error logs) because the data that the
Agency produced is not a “record” and is not
stored in a format that can be preserved. The
records that appellant is requesting ac­
tually do not exist in their original for­
mat - there is no system of “records” for
storing the PA Evaluations at the Academy.
The simulators have data bits from the PAs,
but they (sic) information begins to break
down and degenerate due to so many trainees
using the simulators. .. . (emphasis added)
The Agency’s response is improper, because Mr.
Ward’s affidavit proves he accessed records about Ap­
pellant’s evaluation that reflected the actions of air­
craft therein. Such actions could have only been
observed in-person by attentive individuals during Ap­
pellant’s evaluation in the Tower Simulation System
(TSS), and can only be re-observed through some sort

92a
of recreation of that evaluation. The records the
Agency has produced do not suffice for making the
determinations Mr. Ward made, as he detailed in his
sworn affidavit.
Prior to the date of this affidavit, Mr. Ward’s offi­
cial position respecting what happened during Appel­
lant’s evaluation was asserted on Appellant’s technical
review (TR) final decision worksheet, and via email to
other FAA officials. They were as follows:
After talking with the Evaluator we deter­
mined that: The evaluator was looking at the
RPO’s monitor and knew exactly where the
aircraft in question was located.
Exhibit 8.
The computer processed all information cor­
rectly and moved the aircraft exactly as
Mr. Rutila directed. Mr. Taylor informed
Mr. Rutila of this fact during the debrief.
Exhibit 9 (emphasis added).
Whatever information Mr. Ward used to conduct
his “research” for his July 2017 sworn affidavit, ap­
proximately one year after he stated the entirely op­
posite belief as a basis for terminating Appellant, is
responsive to this request.
This evidence clearly also allowed Mr. Ward to
determine the results of those aircraft’s actions on
other aircraft. For example, Mr. Ward asserts “no other
aircraft were impacted, and (the extra 360s) caused no
additional workload to Mr. Rutila.” Id. The documenta­
tion that the Agency has produced from Appellant’s

93a
evaluation, thus far, does not reflect, recreate, or pro­
vide a transcription of the events in that scenario.
Whether or not the Agency believes the infor­
mation constitutes a record, or can be “stored in a for­
mat that can be preserved” is materially irrelevant
to the discovery request. If Mr. Ward can conduct re­
search on the information, as he himself swears he did,
then the information is subject to discovery. The Board
should compel its release.
The foregoing examples are but a few of the total­
ity of the responses which the Board could expect
would be drastically altered if the Agency were com­
pelled to have Agency officials and/or agents answer
Appellant’s discovery requests under oath or affirma­
tion. This notwithstanding, the Board should compel
the Agency to answer Appellant’s discovery requests
under oath or affirmation because this is a mainstream
discovery requirement.
APPETJ .ANT’S DISCOVERY IS SPECIFICALLY
TARGETED TO T.EAD TO THE DISCOVERY
OF ADMISSABLE EVIDENCE
1. Appellant’s requests are structured to obtain
relevant evidence respecting the burden of
the parties in this Appeal.
The Agency has objected to Appellant’s discovery
requests numerous times on the basis that Appellant’s
requests are not specifically targeted to lead to the
discovery of admissible evidence. These objections
are improper. A cursory overview of the interrogatory

94a
requests, in the context of the parties’ respective bur­
dens before the Board, reveals not only that the re­
quests are relevant to the Appeal, but are also properly
and specifically targeted to lead to the discovery of ad­
missible evidence.
Appellant has already succeeded in asserting the
Board’s jurisdiction over his Appeal. At the request of
the Board, the parties and the Board convened via tel­
econference on June 28th, 2018, where Judge Styles
informed the parties that she found the Appellant to
have established the Board’s jurisdiction over his Ap­
peal. One basis of Appellant’s jurisdictional argument
was his belief that he had made a protected disclosure
as defined by 5 U.S.C. § 2302(A)(2)(D). See Dkt. 13 at 5.
The Board has jurisdiction over an IRA appeal if
the appellant has exhausted the administrative reme­
dies before OSC and makes nonfrivolous allegations of
facts that, if proven, could show that: (1) the appellant
engaged in whistleblowing activity by making a pro­
tected disclosure; and (2) the disclosure was a contrib­
uting factor in the agency’s decision to take or fail to
take, or threaten to take or fail to take, a personnel
action. Yunus v. Department of Veterans Affairs, 242
F.3d 1367,1371 (Fed. Cir. 2001)\Mudd u. Department
of Veterans Affairs, 120 M.S.P.R. 365 % 4 (2013). The
jurisdiction issues have now been resolved, and the
agency did not appeal the decision.

95a
a. The Agency has a burden to prove Appel­
lant would have been terminated regard­
less of his filing of a protected disclosure.
To establish a prima facie claim of whistleblower
reprisal, the agency is given an opportunity to prove by
clear and convincing evidence that it would have taken
the same personnel action in the absence of the pro­
tected disclosure. Bearing this in mind, the Appellant
asked the following questions of the Agency. See Ap­
pendix A; Exhibits 3, 4, 5, and 6.
i. Interrogatories 16 and 21
ii. Request for Production of Documents 1,2, 3,12,
13,14,15,16,17,18,19, 20, 27
iii. Requests for Admission 1, 2, 3, 4,17
b. There are different types of “protected
disclosures.” Appellant has consistently
argued that his evidenced a violation of an
Agency rule, gross mismanagement, gross
waste of funds, and an abuse of authority.
i. Gross Mismanagement
Gross mismanagement means a management
action or inaction which creates a substantial
risk of significant adverse impact upon the
agency’s ability to accomplish its mission. White v.
Department of the Air Force, 63 M.S.P.R. 90, 95
(1994).
Appellant asked the Agency to produce infor­
mation about whether FAA Academy evaluator
Michael Taylor suffered from a hearing

96a
impairment, an allegation which was originally af­
firmed by an Agency representative during Appel­
lant’s concurrent EEO investigation. If Mr. Taylor
did suffer from a hearing impairment, it would ex­
plain why Appellant believes he failed to hear cru­
cial details that affected the scoring of Appellant’s
evaluation. It would significantly alter the course
of this case.
In seeking information about the impact of
the FAA Academy’s then-new evaluation pro­
grams, to which Appellant was subject while he
was employed there, Appellant asked for basic
background information about the Performance
Assessment (PA) program and Technical Review
(TR) program, including who was responsible for
developing them. Appellant asked for information
about whether the Agency believes it provides
trainees with a reasonable opportunity to demon­
strate improvement following one bad score on a
PA3. Appellant also sought copies of complaints
about the level of knowledge of FAA Academy
graduates by training representatives in the field
(i.e. in facilities where academy graduates work)
both before and after these changes took place. Fi­
nally, Appellant asked the Agency what the PA
and TR programs were intended to do that the pro­
grams the Agency used until 2014 did not do.
Furthermore, Appellant asked whether the
Agency had ever validated the PA and TR
3 This is a relevant question because Appellant himself was
terminated after a singular evaluation score, with no prior history
of poor performance, and with no reasonable opportunity to re­
cover his score.

97a
programs. Appellant asked for a detailed explana­
tion as to how PAs and graded, and how TRs are
administered. Finally, Appellant asked for infor­
mation about how FAA Academy training courses
are designed and certified. All of this information
conforms to the Board’s standards for federal gov­
ernment training and evaluation programs, which
is detailed in the Board’s 2014 report to the pres­
ident and Congress entitled “Evaluating Job Ap­
plicants: The Role of Training and Experience in
Hiring.” See id. at 574.
ii. Gross Waste of Funds
A gross waste of funds is defined as a morethan-debatable expenditure that is significantly
out of proportion to the benefit reasonably ex­
pected to accrue to the government. Van Ee v.
E.P.A., 64 M.S.P.R. 693,698 (1994) (quoting Nafus
v. Department of the Army, 57 M.S.P.R. 386, 393
(1993)). In seeking information which could point
to a gross waste of funds, Appellant asked the
Agency to produce the names of the personnel or
work group who worked to eliminate the previ­
ously-existing option for FAA Academy trainees to
re-take a failed assessment prior to being outright
terminated. He also requested the Agency to iden­
tify the personnel who implemented the practice
of drafting and signing a termination letter for
every FAA Academy trainee prior to the existence
of any apparent need to terminate them. The Agency
makes its tuition costs for FAA Academy classes
publicly available online. At an approximate cost
4 https://www.mspb.gov/studies/browsestudies.htm

98a
of $30,000 per trainee in fiscal year 2013 (not
counting the trainees’ basic training, salary, and
per diem), terminating a trainee in the circum­
stances like Appellant’s is more than likely a gross
waste of funds. See Exhibit 12.
iii. Abuse of Authority
Abuse of authority occurs when there is an ar­
bitrary or capricious exercise of power by a federal
official or employee that adversely affects the
rights of any person, or that results in personal
gain or advantage to himself or to preferred other
persons. Wheeler v. Department of Veterans Affairs,
88 M.S.P.R. 236 f 13 (2001).
With respect to an arbitrary or capricious ex­
ercise of power by a federal official or employee
that adversely affects the rights of any person,
Appellant asked the Agency to produce the grad­
ing criteria for performance assessments (PAs)
and the review criteria for technical reviews (TRs).
The Agency’s Order JO 3000.22 requires the
Agency to have an inter-rater agreement in order
to conduct graded performance evaluations. See
Exhibit 10. The Agency has not produced one.
With respect to the latter portion,"... or that
results in personal gain or advantage to himself or
to preferred other persons, ...” Appellant asked
the Agency to produce information about other
trainees who failed their FAA Academy training
but were nevertheless reinstated5. Appellant also
6 Appellant once again cites the case of Madeline Bostic, a
similarly situated trainee who was in fact terminated for failing

99a
asked for records concerning another evaluation of
two of Appellant’s co-trainees for whom evaluators
Michael Taylor and Dan Henderson were said to
have intervened to rectify simulator issues that
arose in their evaluation. Finally, Appellant asked
the Agency to produce information concerning
quotas for FAA Academy pass and failure rates.
c.

If Appellant makes a primae facie case
of whistleblower reprisal, then the
Agency bears additional burdens.
i.

The Agency will be given an oppor­
tunity to prove by clear and con­
vincing evidence that it would have
taken the same personnel action in
the absence of the protected disclo­
sure. 5 U.S.C. § 1221(e)(2); Jenkins,
118 M.S.P.R. 161 16.
In determining whether an agency
has shown by clear and convincing evi­
dence that it would have taken the
same personnel action in the absence of
whistleblowing, the Board will consider
the following factors: (1) the strength of
the agency’s evidence in support of its
action; (2) the existence and strength of
any motive to retaliate on the part of
agency officials who were involved in

a performance assessment, just like Appellant. The record
demonstrates Ms. Bostic’s termination, and that she was subse­
quently reinstated, restarting all of her FAA Academy training
from October 2016 to December 2016.

100a
the decision; and (3) any evidence that
the agency takes similar actions against
employees who are not whistleblowers
but who are otherwise similarly situ­
ated. Carr v. Social Security Admin­
istration, 185 F.3d 1318, 1323 (Fed. Cir.
1999);Mattil v. Department of State, 118
M. S.P.R. 662, 669-70, ff 11-12 (2012).
Specifically, with respect to number
(3), Appellant asked the Agency to pro­
duce information about the actions
taken to reinstate and retrain FAA
Academy trainee Madeline Bostic after
she failed to pass her first evaluation in
May 2016, as well as similar actions it
has taken to reinstate and retrain other
individuals who worked at the FAA
Academy in the same capacity as Appel­
lant and Ms. Bostic. To demonstrate
whether those individuals filed pro­
tected disclosures, Appellant asked for
the (a) the feedback reports for Appel­
lant’s class as well as those classes im­
mediately before and after his class; (b)
any complaints filed against the FAA
Academy evaluators for a 5-year period
of time; and (c) technical reviews (TRs)
filed in Ms. Bostic’s class, several classes
thereafter, and TRs that pertained to
Appellant’s evaluators Michael Taylor
and Dan Henderson.

101a
APPELLANT IS PREJUDICED BY
AGENCY’S DISCOVERY NON-COMPLIANCE
AND THE CURRENT SCHEDULE OF
PROCEEDINGS IN THIS APPEAL
Appellant is severely prejudiced by the Agency’s
non-compliance with his discovery requests. As Appel­
lant has demonstrated herein, he has submitted to the
Agency discovery requests which are not only relevant
to the Appeal, but are also properly structured so as
to obtain information that is expected to support or
disprove the parties’ burdens before the Board.
Appellant must also respectfully point out that he
is prejudiced by the Board’s requirement that he file
this Motion only a few days after the Agency submitted
its final discovery productions, with the added pres­
sure of having to file pre-hearing submissions on the
same day, and prepare for a hearing that is currently
scheduled five days from today. Appellant believes it
is unreasonable for him to be able to thoroughly exam­
ine all of the Agency’s discovery responses, to prepare
this Motion, and to prepare his prehearing submis­
sions within the same period of time. The Agency had
months to prepare what it has submitted to Appellant,
but Appellant had had only days to prepare his re­
sponse to and issues with those productions, while
simultaneously preparing for a hearing. Therefore, in
the event the Board finds at a later date that this Mo­
tion does not sufficiently contest a particular Agency
response or objection that Appellant believes the
Agency should be compelled to answer, Appellant re­
spectfully requests that he be provided an opportunity

102a
to further justify those issues prior to the Board issu­
ing a discovery ruling that disfavors him.
Appellant has made his best, good-faith effort to
compile this Motion, highlighting the key issues with
the Agency’s discovery productions, averring that there
may be other specific deficiencies that he may need to
address with the Board at a later time.
Respectfully submitted,
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct.
Executed on
October 24, 2018
s/ Harold Edward Rutila IV
Harold Edward Rutila IV
12498 Woodhull Lndg
Fenton, MI 48430
(810) 845-3497
I hereby certify that I have submitted this document
through the MSPB e-Appeal system and all Parties of
record have received a copy electronically.
s/ Harold Edward Rutila IV
Harold Edward Rutila IV
12498 Woodhull Lndg
Fenton, MI 48430
(810) 845-3497

103a
LOGO]
MERIT SYSTEM PROTECTION BOARD
Appeal Form-Appellant and Agency Information
Please type or print legibly.

OMB No. 3124-0009

1.

Name (last, first, middle initial)
Rutila IV, Harold, E.

2.

Present Address (number and street, city, state,
and zip code)
12498 Woodhull LNDG
Address:
City, State, Zip Code: Fenton, Michigan, 48430,
United States of America
Telephone numbers (include area code)
and E-Mail Address
You must notify the Board in writing of any
change in your telephone number(s) or e-mail
address while your appeal is pending.
Work:
Home: (810) 845-3497
Cell:
Fax:
E-mail Address: h.rutila@gmail.com
Other Phone Type:

3.

4.

Do you wish to designate an individual or organi­
zation to represent you in this proceeding before
the Board? (You may designate a representative
at any time. However, the processing of your
appeal will not normally be delayed because of
any difficulty you may have in obtaining a
representative.)
0 No
□ Yes

104a
5.

Name, address, and telephone number of the
agency that took the action or made the decisions
you are appealing (include bureau or division,
street address, city, State and Zip code)
Agency Name: Department of Transportation
Federal Aviation Administration
Bureau:
800 Independence Ave SW
Address:
City, State, Zip
Washington, District of
code:
Columbia, 20591,
United States of America
Agency Phone: (866) 835-5322

6. Your Federal employment status at the time of
the decision or action you are appealing:
0 Temporary □ Permanent □ Applicant
□ Term □ Retired □ Seasonal □ None
7. Type of appointment (if applicable)
□ Competitive □ SES 0 Excepted
□ Postal Service □ Other
8. Your occupational series, position title, grade, and
duty station at the time of the decision or action
you are appealing (if applicable):
Occupational Series 2152
Position Title: Air Traffic Control or Cluster:
Duty Station: Washington, D.C.
Grade or Pay Band: FG-01
9.

Are you entitled to veterans’ preference?
See 5 U.S.. 2108.
□ Yes 0 No

105a
10. Length of Government Service (if applicable)
Years 3 Months
11. Were you serving a probationary, trial, or initial
service period at the time of the action or deci­
sion you are appealing?
0 Yes □ No
HEARING: You may have a right to a hearing
before an administrative judge. If you elect not
to have a hearing, the administrative judge
will make a decision on the basis of the sub­
missions of the parties.
12. Do you want a hearing? 0 Yes □ No
E-Filing: Registration as an e-filer enables you
to file any or all of your pleadings with the
Board in electronic form. Registration also
means you consent to accept service of all
pleadings filed by other registered e-filers and
all documents issued by the Board in elec­
tronic form. You will receive these as PDF
documents at the e-mail address you provided
the Board. If registered as an e-filer, you may
file any pleading, or portion of a pleading, by
non-electronic means. You can withdraw your
registration as an e-filer at any time.
13. Do you wish to register as an E-Filer in this ap­
peal? 0 I elect to E-File □ I decline to E-File

106a
L4. I certify that all of the statements made in
this form and all attached forms are true,
complete, and correct to 0 the best of my
knowledge and belief.
Harold E. Rutila IV, Appellant Date:
Complete this form and attach it to MSPB
Form 185-1 if you are appealing an agency per­
sonnel action or decision (other than a deci­
sion or action affecting your retirement rights
or benefits) that is appealable to the Board un­
der a law, rule, or regulation. If the personnel
See 5 CFR 1201.3(a) for a list of appealable per­
sonnel actions and action or decision is ap­
pealable to the Board, you should have
received a final decision letter from the agency
that informs you of your right to file an appeal
with the Board.
Please type or print legibly.

OMB No. 3124-0009

Please submit only the attachments requested
in this form at this time. You will be afforded the
opportunity to submit detailed evidence in support
of your appeal later in the proceeding.
Name (last, first, middle initial) Rutila IV, Harold, E.
1. Check the box that best describes the personnel
action or decision taken by the agency you named
in MSPB Form 185-1 that you are appealing. (If
you are appealing more than one action or deci­
sion, check each box applies.)
□ Veterans Administration Senior Executive
Service Removal from civil service
___

107a
□ Veterans Administration Senior Executive
Service Transfer to general schedule
□ Removal (Termination after completion
of probationary or initial service period)
□ Involuntary Resignation
□ Termination during probationary or initial
service period
□ Involuntary Retirement
□ Reduction in grade or pay
□ Suspension for more than 14 days
□ Separation, demotion, or furlough for more
than 30 days by reduction in force (RIF)
□ Furlough of 30 days or less
□ Denial of within-grade increase
0 Failure to restore/reemploy/reinstate or im­
proper restoration/reemployment/reinstatement
□ Negative suitability determination
□ Other action or decision (describe):
2. Date you received the agency’s final decision let­
ter (if any)
05/25/2026
3. Effective date (if any) of the agency action or
decision (month, day, year)
05/25/2016
4.

Prior to filing this appeal, did you and the agency
mutually agree in writing to try to resolve the
matter through an alternative dispute resolution
(ADR) process?

□ Yes 0 No

108a
5.

Explain briefly why you think the agency was
wrong in taking this action. In challenging such
an action, you may choose to allege that the
agency engaged in harmful procedural error,
committed a prohibited personnel practice, or en­
gaged in one of the other claims listed in Appen­
dix A.
Attach the agency’s proposal letter, decision let­
ter, and SF-50, if available.
See Continuation Sheet for Response.

6.

With respect to the agency personnel action or
decision you are appealing, have you, or has an­
yone on your behalf, filed a grievance under a
negotiated grievance procedure provide by a col­
lective bargaining agreement?

□ Yes 0 No
7.

If your answer to question 6 is “Yes,” on what
date was the grievance filed (month, day, year)?
NOT APPLICABLE

8.

If your answer to question 6 was, “yes,” has a de­
cision on the grievance been issued?
NOT APPLICABLE

9.

Did you file a whistleblowing complaint with the
Office of Special Counsel (OSC)?
□ Yes 0 No
If your answert to question 9 was ‘Yes”, the date
on which you filed complaint with OSC:
06/30/2016

109a
10. Have you received written notice that the Office
of Special Counsel made a decision or terminated
its investigation?
□ Yes 0 No
If your answert to question 10 was “Yes”, the date
on which OSC made a decision ore terminated its
investigation:
01/29/2018
11. Did you filed a complaint on this matter with the
Department of Labor (DOL)?

□ Yes 0 No
12. Has the Department of Labor notified you that
your USERRA or VEOA complaint could not be
resolved?
NOT APPLICABLE
Continuation Sheet
5. Explain briefly why you think the agency was
wrong in taking this action. In challenging such an ac­
tion, you may choose to allege that the agency engaged
in harmful procedural error, committed a prohibited
personnel practice, or engaged in one of the other
claims listed in Appendix A. Attach the agency’s pro­
posal letter, decision letter, and SF-50, if available.
The FAA committed harmful procedural errors, as
well as a prohibited personnel practice against me in
the form of retaliation for protected activity under 5
U.S.C. § 2302 (b)(9)(A)00. On May 23rd, 20161 was
evaluated by FAA Academy evaluator Dan Henderson.
Henderson erred in his grading of my evaluation,
which I appealed via the FAA Academy Technical Review process. On May 24th, 2016, after the appeal was

110a
decided in my favor, Henderson was permitted to have
influence over my outcome at the FAA Academy when
he was assigned as my evaluator again. It was here
where Henderson and another evaluator issued me a
score of 15%, which caused me to be terminated from
the FAA. FAA supervisors failed to consider several
appeals I filed in contest of the 15% score and were
complicit in the behavior of its evaluators.
The FAA also committed harmful procedural errors
when its evaluators failed to correct well-documented
discrepancies with the simulator where my evaluation
was administered. Simulation errors caused numer­
ous problems that the evaluators used as a basis for
issuing me a 15%.
Finally, the FAA committed unlawful discrimination
when it failed to reinstate me following these events
after it did so for a similarly-situated female trainee
who underwent similar issues in May 2016.

111a
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILA, IV,
Appellant,

DOCKET NUMBER
DC-1221-18-0474-W-1

v.
DEPARTMENT OF
TRANSPORTATION,
Agency.

DATE: October 26, 2018

ORDER CLOSING THE RECORD
Because the appellant has withdrawn his request
for a hearing, the record in this appeal will close on
November 16.2018. All evidence and argument must
be filed by that date. Evidence and related argument
filed after that date will not be accepted unless the
party submitting the evidence shows that it is new and
material evidence that was not available before the
record closed. Notwithstanding the close of the record,
however, pursuant to 5 C.F.R. § 1201.59(c), a party
must be allowed to respond to new evidence or argu­
ment submitted by the other party just before the close
of the record.
Initial briefs must be electronically filed by
the parties by November 9.2018.
FOR THE BOARD:

/S/
Kasandra Robinson Styles
Administrative Judge

112a
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILA, IV,
Appellant,

DOCKET NUMBER
DC-1221-18-0474-W-l

v.
DEPARTMENT OF
TRANSPORTATION,
Agency.

DATE: October 15, 2018

ORDER RESCHEDULING
Pursuant to the agency’s unopposed request, I
have RESCHEDULED the parties’ prehearing sub­
mission due date to October 22, 2018, and the tele­
phonic prehearing conference to October 24, 2018, at
1:00 p.m. To connect to the call the parties MUST dial
1-800-793-9878 and use participant code 1234107.
FOR THE BOARD:

/S/
Kasandra Robinson Styles
Administrative Judge

113a
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILA, IV,
Appellant,

DOCKET NUMBER
DC-1221-18-0474-W-l

v.
DEPARTMENT OF
TRANSPORTATION,
Agency.

DATE: October 10, 2018

ORDER GRANTING AGENCY’S REQUEST
FOR EXTENSION OF TIME
Per written request dated October 5, 2018, the
agency requested an extension of time to file prehear­
ing submissions and it requested to reschedule the prehearing conference date. I find that good cause exists
for an extension of time. Consequently, the agency’s
request for an extension is granted, and accordingly,
the parties’ prehearing submissions must be filed by
October 22. 2018. The telephonic prehearing confer­
ence is RESCHEDULED to October 24. 2018. at
1:00 p.m. To connect to the call the parties MUST dial
1-800-793-9878 and use participant code 1234107.
FOR THE BOARD:

/S/
Kasandra Robinson Styles
Administrative Judge

114a
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILA, IV,
Appellant,

DOCKET NUMBER
DC-1221-18-0474-W-l

v.
DEPARTMENT OF
TRANSPORTATION,
Agency.

DATE: August 27, 2018

ORDER
Pursuant to the agency’s request, the hearing in
the captioned appeal is RESCHEDULED from Sep­
tember 17. 2018. to October 29. 2018. at 09:00 a.m.
As previously noted, some witnesses will appear
via video conference, while at least one party
will appear at the Board’s Washington Regional
Office. Additionally, the prehearing submission
due date has been RESCHEDULED on October
15.2018. and the prehearing conference has been
RESCHEDULED to October 15. 2019. at 10:00
a.m.. to permit the parties an opportunity to re­
solve outstanding discovery issues.
FOR THE BOARD:

/S/
Kasandra Robinson Styles
Administrative Judge

115a
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
HAROLD E. RUTILA, IV,
APPELLANT,
v.
U.S. DEPARTMENT OF
TRANSPORTATION,
AGENCY.

)
)

Docket No.
DC-1221-18-0474-W-1

) Date: November 9,2018
)
)
)

Honorable Judge:
Kasandra Robinson
Styles

AGENCY’S INITIAL BRIEF
I.

INTRODUCTION

During the party’s status conference on October
26, 2018, Judge Styles ruled that Appellant’s IRA
would be evaluated under 5 U.S.C. § 2302(b)(9)(A). In
her Summary Of Telephonic Status Conference Order,
issued on October 26, 2018, Judge Styles stated Ap­
pellant was required to establish, by preponderant
evidence, that his termination was reprisal for his en­
gagement in protected activity. That is, Appellant must
establish that: (1) he engaged in protected activity de­
scribed under 5 U.S.C. § 2302(b)(9)(A)(i), (B), (C), or (D);
and the (2) protected activity was a contributing factor
in the Agency’s decision to take or fail to take a person­
nel action as defined by 5 U.S.C. § 2302(a). See 5 U.S.C.
§ 1221(e)(1); Webb v. Department of the Interior, 122
M.S.P.R. 248, f 6 (2015).

116a
Under 5 U.S.C. § 2302(b)(9)(A)(i), it is unlawful
to take any personnel action (such as termination)
against an employee because of his or her exercise of
any appeal,
Agency followed a standard process to remove him for
failing the training course and not because the Agency
acted with retaliatory animus. Appellant’s continued
employment as an Air Traffic Control Specialist was
contingent upon “successful progression” in the Na­
tional Training Program. Appellant’s TR filed on May
23, 2016 was not a contributing factor in the Agency’s
decision to terminate his training and temporary em­
ployment.
3. EVEN IF APPET J,ANT ENGAGED IN A PRO­
TECTED ACTIVITY. THE AGENCY WOULD HAVE
TAKEN THE SAME PERSONNEL ACTION.
Assuming Appellant has shown, by preponderant
evidence, that he engaged in a protected activity that
was a contributing factor in the decision to take a per­
sonnel action, the Agency still would have terminated
him even if Appellant had not filed a TR on May 23,
2016.. 5 U.S.C. § 1221(e)(1), (2); Caddell v. Department
of Justice, 66 M.S.P.R. 347,351 (1995).
In determining whether the Agency has shown by
clear and convincing evidence that it would have taken
the same personnel action in the absence of whistle­
blowing, courts will employ a CARR factor analysis;
(a) the strength of the agency’s evidence in support of

117a
its personnel action; (b) the existence and strength of
any motive to retaliate on the part of the agency offi­
cials who were involved in the decision and (c) any ev­
idence that the agency takes similar actions against
employees who are not whistleblowers but who are
otherwise similarly situated.
(a) The strength of the agency’s evidence
in support of its personnel action.
Appellant cannot accept that the Agency removed
him from further consideration due to his low perfor­
mance on his third evaluation. Instead, Appellant re­
lies on a misguided concept that the Agency retaliated
against him for having participated in the TR process.
The record is clear regarding Appellant’s low grade.
See Exhibit 6, Appellant’s Tower Cab Performance As­
sessment (Local Control) dated May 24, 2016. During
his training, Appellant received four 100s that were
valued only 1% of his total grade; a 96.24 valued at
only 5%; 85 valued at 15%; two 30% valued scores, one
79 and a 15. See Exhibit 7, Student Progress Report.
Appellant needed 19.36 final points to pass the entire
training course, but the fourth and final evaluation
was worth only 15 points. Appellant then was mathe­
matically eliminated based on 4.36 points.
Appellant’s third evaluation was a life case sce­
nario of a normal air traffic control setting that was
both difficult and compounding. Appellant misguided
an airplane and mishandled the situation within other
airplanes in the vicinity, which led to multiple point

118a
deductions. In his Summary Of Findings, Mr. Ward
wrote the following details regarding Appellant’s As­
sessment forms and work sheets:
“I have reviewed all of our documentation re­
garding Mr. Rutila’s’ second {third) Perfor­
mance Assessment run on Local Ground.
Based on the written documentation, I can
say that Mr. Rutila’s run was in trouble al­
most from the very beginning. With the very
first two IFR departures, Mr. Rutila failed to
provide proper IFR separation, resulting in
his only sixteen (16) point error. The third IFR
departure sat at the approach end for over
eight minutes waiting to depart and should
have resulted in a five point “Delay” error
which the evaluator documented on the work­
sheet but not did not document on the grade
form. The aircraft that Mr. Rutila claims de­
parted the airspace and then returned was ac­
tually a VFR inbound from the southwest
requesting two “touch and go’s” followed by a
full stop landing. Mr. Rutila worked this air­
craft (N9726Z) into a pattern for runway 28L,
but had to send the aircraft around to avoid
another aircraft Mr. Rutila had cleared for
takeoff from the same runways. I don’t know
what Mr. Rutila intended to do with N9726Z
after that, but I do know that the computer
accurately followed all of his instructions with
regard to this aircraft ...” See Exhibit 8, Mr.
Ward’s Summary of Findings.

119a
(b) The existence and strength of any mo­
tive to retaliate on the part of the agency
officials who were involved in the deci­
sion.
The intent of the TR process is to offer impartiality
and objectivity in the grading process. Hundreds of
trainees have used this forum to contest a grade. This
was the case with Appellant. He utilized a method
solely intended to dispute his grade on all of his evalu­
ations. Once references were cited on Appellant’s first
TR, Mr. MacNeill and Mr. Ward awarded Appellant one
point, but no points were justified on his subsequent
TRs. The TR instructions also provide guidance on
trainees who have been “mathematically eliminated”.
Therefore, failing the course is a normal procedure for
removal and there was no retaliatory animus against
Appellant for using a practice that is highly supported
by the Agency and utilized by hundreds of trainees. In
addition, the Agency highly contends that Appellant’s
first evaluator, Mr. Henderson, was not aware of Appel­
lant’s TR. The TR does not indicate that Agency man­
agers Mr. MacNeill and Mr. Ward consulted with Mr.
Henderson. See Exhibit 9, Declaration of Dan Hender­
son. Nevertheless, Appellant can only assume that be­
cause he received a low grade, Mr. Henderson, who was
in the same room monitoring another student’s evalu­
ation, must have influenced his evaluator, Mr. Taylor.
But Appellant has presented no actual evidence to
show Mr. Henderson actually performed Appellant’s
third evaluation or how he influenced Mr. Taylor.
Mr. Henderson might have assisted Mr. Taylor in

120a
discussing point deductions, but this was allowed per
the grading guidelines, and the record shows Mr.
Taylor was the sole grader. Appellant also claims that
Mr. Henderson’s interrupted “substantially” during
Mr. Taylor’s out-briefing during his discovery response,
but in fact
*

*

*

121a
19-1712
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
HAROLD E. RUTILAIV,
Petitioner
v.
DEPARTMENT OF TRANSPORTATION,
Respondent
PETITION FOR REVIEW FROM THE
MERIT SYSTEMS PROTECTION BOARD IN
DC-1221-18-0474-W-1
A.J. KASANDRA ROBINSON STYLES
REPLY BRIEF OF PETITIONER
HAROLD E. RUTILA IV
HAROLD E. RUTILA IV
400 Gettysburg Road
Unit 305
Canton, MI 48187
h. rutila@gmail .com
(810) 845-3497
Petitioner In Pro Se
November 15, 2019
*

*

*

122a
violate these rules. AMA-505 was the office to which
Rutila’s evaluators belonged, and was the owner of this
document. This information, therefore, was binding on
the evaluators as they measured Rutila’s performance
in his PAs. The document’s inherent cross-reference to
Order 7110.65 as a “standard used to measure train­
ees’ performance” should cause this Court to construe
both the document and Order 7110.65 as agency rules.
They contained expectations of trainees including
their duties, standards of conduct, and behavior.
F. Rutila’s purported waiver of his hearing
right was not clear, unequivocal, decisive,
informed, knowing, voluntary, or intelli­
gent.
The idea that Rutila could have entered into a
knowing, voluntary, and intelligent waiver of his rights
to a hearing is negated by substantial evidence con­
cerning the events immediately preceding the Board’s
prehearing conference.
To begin, the prehearing conference was held on
Friday, October 26, 2018 at 1:00 P.M. Appxl062. The
Summary of Telephonic Status Conference was issued
by the AJ the same day, October 26, 2018 at 2:01 P.M.
Appx2632. The hearing was scheduled for Monday, Oc­
tober 29,2018 at 9:00 A.M. Appxl062.
The FAA argues that because Rutila failed to con­
test one sentence in the AJ’s Summary of Prehearing
Conference, he “cannot complain now that he involun­
tarily waived his right to a hearing.” Response at 65.

123a
But Rutila never waived, involuntarily or otherwise,
his hearing right. In its response, FAA has not pro­
vided any evidence of a waiver. There is, however, sub­
stantial evidence that Rutila, who was a pro se
appellant, was faced with procedural pressures during
the merits stage of his appeal which can be best de­
scribed as substantial and inappropriate. There is per­
haps no better example of this than the content of
Rutila’s motion to postpone his hearing, filed October
26, 2018. Appx2569-2571. Among other things, he ex­
plained
I cannot reasonably be ready for a hearing on Oc­
tober 29th. I have spent six days preparing and fil­
ing a motion to compel. That motion was due on
the same date as my prehearing submissions. The
total expenditure of time I spent on those items
combined is approximately 40 hours across 6 days.
During that same period of time I also had to work.
I am now left with five more days to prepare for
the hearing, without even knowing what the result
of my outstanding motions will be.
Id. He further explained, “The Board gave me six days
to file a motion to compel, which is four days less than
the regulations provide.” Id. (citing App’x 1062), com­
pare with 5 C.F.R. § 1201.73(d)(3). The FAA’s argument
is that Rutila should have contested the AJ’s Summary
of Prehearing Conference to allow the Board to be
“made aware” of Rutila’s contention. This is, frankly,
absurd. It is not Rutila’s responsibility to inform the
AJ of the Board’s legal responsibilities prescribed in
the judges’ handbook.

124a
An order the AJ filed concurrently with her sum­
mary provided Rutila with 14 days to file an “informal
brief,” the rules and standards of proof for which do not
exist. Any time Rutila had in the wake of this night­
mare would necessarily be spent complying with the
AJ’s order to produce an “informal brief.” Rutila was
not equipped to research the merits of the two options
the AJ presented in her ultimatum, establish the bevy
of case law which unequivocally supports his hearing
right, file it in a brief, and pray the AJ saw it before the
close of business. Therefore, FAA’s position is wholly
unreasonable.
The Supreme Court has addressed questions of
waivers of rights using traditional common-law princi­
ples. In the case of constitutional rights, the Supreme
Court has established a standard whereby a waiver is
permitted where entry into it is “knowing, voluntary
and intelligent.” Johnson v. Zerbst, 304 U.S. 458, 46269 (1938). In the case of written waivers of rights to
sue the federal government, this Court has held that
“a promise is unenforceable if the interest in its en­
forcement is outweighed in the circumstances by a
public policy harmed by the enforcement of the agree­
ment.” Newton v. Rumery, 480 U.S. 386, 392 (1987).
Here, there is no waiver from Rutila on the record.
Rutila has already addressed that his purported
waiver was not voluntary. See Formal Brief at 58. That
the purported waiver was neither knowing nor intelli­
gent is rather evident. There is no rational basis for
which Rutila could have waived his right to a hearing;
specifically, Rutila obtained no substantial benefit. Cf.

125a
McCall v. Postal Service, 839 F.2d 644, 666 (Fed. Cir.
1988). Rutila was thrust into a briefing structure on
the merits of his case which were not established by
MSPB law, rule, or regulation.
Rutila acted very reasonably in the lead up to the
prehearing conference. Having already noted that the
hearing deadline was fast approaching without the ap­
propriate pre-hearing matters having been completed,
he moved on October 25, 2018 to extend the hearing.
The FAA, in bad faith, opposed the motion, and the AJ
subsequently denied it. The onus is on the FAA to
demonstrate how the AJ’s ultimatum was legal, and
how she arrived at her conclusion that Rutila waived
his hearing right. There is no evidence, signed or oth­
erwise, which establishes that Rutila made a clear, un­
equivocal, decisive, and informed action to waive his
hearing right. See Campbell v. Dep’t of Defense, 102
M.S.P.R. 178, f 5 (MSPB 2006). Nor is there any evi­
dence to demonstrate the AJ “fully apprised” Rutila “of
the relevant adjudicatory requirements and options in
his case.” Id.
The FAA does not refute that there was an ultima­
tum; it merely suggests Rutila provides no evidence
that the AJ coerced “his waiver.” The options presented
during that Friday conference were to have a hearing
on Monday, with literally zero business days’ notice, or
to elect to brief the case “on paper.” Neither choice is
consistent with federal law or MSPB regulations.
Put simply, as the Congress has established
MSPB appellant’s rights to a hearing, and the MSPB

126a
acknowledges this in its judges’ handbook, there is a
clear harm to public policy when an AJ arbitrarily and
coercively retracts that right on made-up grounds
which themselves make no sense. This Court should
consider the inherent illogic of the AJ’s expectations,
where she demanded Rutila file two briefs - “initial”
and “formal,” the procedures for which remain un­
known - prior to the close of the evidentiary record.
While MSPB rules do permit decisions based only “on
the record,” this requires the record to be complete,
something the FAA also does not address in its Re­
sponse. Here, the record would not even close until
seven days after Rutila filed his “initial arguments.”
G. Rutila has made a showing that the AJ’s de­
nial of his discovery and subpoena motions
was clear and prejudicial.
FAA argues that Rutila “fails to demonstrate any
abuse of discretion” in the board’s denial of his motion
to compel discovery. Response at 57 (citing Curtin v.
Office of Personnel Management, 846 F.2d 1373, 1379
(Fed. Cir. 1988)). Rutila has already provided sufficient
detail for this Court to conclude there was a significant
abuse of discretion. Formal Brief at 55-57. The most
pressing and relevant one is that the AJ summarily de­
nied the motion basing it solely on “the reasons pro­
vided by the agency in its motion in opposition.”
Appx2636. As Rutila explained in his motion for inter­
locutory review, which followed the AJ’s ruling:
Since [the AJ’s] position contradicts the Board’s
own handbook and the established discovery rules

127a
of the federal court, there is good reason to believe
there is substantial ground for a difference of opin­
ion.
Appx2645. Rutila also explained why the denial of his
discovery and subpoena requests was prejudicial. See
id. Next, the AJ summarily denied Rutila’s subpoena
request on two grounds:
[I] t was unclear whether this was actually a mo­
tion to compel discovery. . . . The appellant’s mo­
tion .. . did not address the agency’s refusal to
provide him with any documents or other evidence
identified in the subpoena request.
Appx2635. FAA now tries to re-invent the AJ’s stated
reasoning by arguing:
The board denied his motion because Mr. Rutila
failed to demonstrate . . . that he had requested
from the FAA the same documents and evidence
that he was seeing from Mr. Henderson . . . and
that the FAA had refused to provide such docu­
ments or evidence.
Response at 67. The FAA’s explanation does not match
the AJ’s own words. Appxl007. FAA’s refusal to provide
documents, where the subject of a subpoena is not the
FAA, is an inappropriate standard of review.
Appx2645-2646.
Other matters that are not addressed are that
FAA had itself requested a subpoena of Dan Hender­
son. Appxl008. Despite that the AJ never ruled on it,
and the FAA subsequently never pursued it, Rutila
nevertheless had every right to seek Henderson’s

128a
subpoena. Henderson would later be named as a wit­
ness for the agency. Appxl069. As Henderson was the
subject of Rutila’s IRA appeal and was now retired
from the agency, he was expected to have custody and
control of documents that were relevant to the case.
Appxl007. Finally, Rutila explained in his motion for
interlocutory review that FAA claimed to have ob­
tained factual information used to answer Rutila’s dis­
covery requests from Henderson himself. Rutila was,
therefore, entitled to review whatever information
Henderson had about this case before the hearing.
Respectfully submitted,
DATED: November 15, 2019
Isl Harold E. Rutila TV
Harold E. Rutila IV
Petitioner in pro se
400 Gettysburg Road
Unit 305
Canton, MI 48187
h. rutila@gmail .com
(810) 845-3497

129a
Course 50046 - Tower Performance Assessment
(PA) Briefing
Purpose:
The purpose of the PA Briefing is to explain the logis­
tics of the Initial Tower Cab.
Schedule:
AMA-513 has scheduled time for the Tower Cab PA
Briefing on the last day of labs (Day 34). Unless other­
wise coordinated, the briefing should start at approxi­
mately 1445.
Procedure:
Introduce yourself and your position. Explain that this
briefing will cover the logistics of the PA days.
General Information:
Evaluator Information:
•

Evaluators are members of AMA-505B or are
AMA-513 instructors. They are all certified to
evaluate student performance.

•

Students will have a different evaluator for
each scenario.

PA Logistics:
•

Students will be evaluated on two local con­
trol and two ground control scenarios over the
course of three days.

•

The PA schedule will be posted the morning of
the first PA.

130a
•

The first run usually begins at approximately
1130 on Day One, and at approximately 0745
on Days Two and Three.

•

Students must be outside of their assigned lab
five minutes prior to the scheduled run time.

•

Failure to be available for the PA scenario will
result in a score of “0” for that scenario.

•

Once the lab is set-up by the evaluators and
remote pilot operators, the students will be in­
vited into the lab.

•

The Students must not bring anything into
the lab other than a headset and pens. Paper
(blank pages, spiral bound, and tablets of pa­
per) will be available in the lab. Additionally,
if the students prefer to use a clipboard, those
will be available in the lab.

Scenario Process:
•

You will be asked one time to let the Evaluator
know when you are ready to begin the Perfor­
mance Assessment scenario.

•

The scenario will start after both students
state that they are ready to begin.

•

Failure to be “ready” in time for the run to be
completed within the scheduled time parame­
ters will result in a score of “0” for that sce­
nario.

•

The scenario will run for 30 minutes and then
be paused. The scenario must be a minimum
of 30 minutes in length. Anything less is not a

131a
valid run and must be restarted or resched­
uled.
•

If the lab equipment fails or other issues pre­
vent the completion of a full 30 minute run,
the scenario will be restarted or rescheduled
at the discretion of FAA QA or Management
personnel. In general, if the lab can be re­
booted, another scenario loaded, and a 30 mi­
nute scenario completed within the scheduled
time for that PA run, we will restart the run.
If there is not enough time left to complete a
full 30 minute run within the scheduled time
slot, we will reschedule the run for a later
time slot.

•

After the 30 minute run, the scenario will be
paused and the students will be asked to step
outside of the lab while the evaluators com­
plete the documentation for that run. Do not
“clean up” the position prior to stepping out of
the lab at the conclusion of the scenario. Leave
the position exactly the way it is at the con­
clusion of the scenario. The evaluators will
clean up the lab and ready it for the next run.

Debrief Process:
•

Each evaluator will call the student(s) back in
to the lab and debrief them on everything that
was recorded on the form and ask them to sign
the document. The signature does not mean
that you agree with the score, only that the
items documented on the form have been dis­
cussed.

132a
•

Any modification/strikethroughs must be ini­
tialed by student and evaluator.

•

Evaluators may debrief students together or
separately.

Evaluation Standards and Forms
•

The standards used to measure performance
are FAA J07110.65, course 50046 materials
and specific outcomes.

•

AMAFM-50046-2 and AMAFM-50046-7 are
used to record all errors.

End the briefing.
NOTE: Do not teach the students how to run the
scenarios, reveal what events occur, or how many
operations are contained within the scenarios. If
they have specific questions on how to conduct an
operation, direct them to their Class Lead.

133a

GAO

United States Government
Accountability Office
Report to Congressional Committees

November 2016

WHISTLEBLOWER
PROTECTION
Additional Actions
Would Improve
Recording and
Reporting of Appeals
Data

Congress relies on MSPB’s annual reports on the num­
ber of appeals received and the outcome of appeals al­
leging violations of whistleblower protection laws to
help examine WPEA’s effectiveness and to identify un­
intended consequences of the legislation. MSPB, with
improved reporting processes, has an opportunity to
better assist Congress.

Subject Matter Specialists Said Granting MSPB
Summary Judgment Authority Could Create Ef­
ficiencies, but Could Also Deny Employee Whis­
tleblowers’ Right to a Hearing
[What is summary judgment?
[Summary judgment authority is a procedural device1
used when there is no dispute as to the material factsj
of the case, and a party is entitled to judgment as a;
matter of law and the responsibility of the court.j

134a
[Who has summary judgment authority?
Other federal adjudicatory bodies, such as the Equal
Employment Opportunity Commission (EEOC) and
the Federal Labor Relations Authority, have summary^
judgment authority. According to EEOC officials we
met with, summary judgment is frequently used at
EEOC as a vetting process to determine whether or not
a hearing will be held after the record has been devel­
oped. They also stated that summary judgment is used
as a case management tool and its advantages include
[eliminating the need for a hearing.|
Source: GAO. | GAO-17-110
Generally, the subject matter specialists who partici­
pated in our focus groups had mixed views as to
whether MSPB’s authority should be expanded. Some
strongly supported expanding MSPB’s authority, while
others strongly opposed it. Focus group participants
said that granting MSPB summary judgment may be
advantageous for involved agencies and MSPB be­
cause greater efficiencies may be gained (see sidebar).
However, in doing so, employee whistleblowers could
lose their right to a hearing, which some participants
said represents a disadvantage to employee whistle­
blowers.
Focus group participants in favor of summary judg­
ment for MSPB stated that it would be advantageous
for involved agencies and MSPB because it would cre­
ate greater efficiencies. They said that involved agen­
cies would not have to engage in an exhaustive,
extensive process when the facts do not warrant it if

135a
MSPB had summary judgment authority. One partici­
pant stated that having summary judgment would
separate valid complaints from meritless complaints
that may not have any facts in dispute, such as em­
ployees who are shielding themselves from misconduct
they actually committed. Another participant said that
involved agencies would delay making settlement de­
cisions until summary judgment rulings were made in­
stead of currently settling cases agencies deemed
meritless to save agency resources.
Participants also told us that MSPB could gain greater
efficiencies from summary judgment because it could
potentially decrease the number of appeals for which
administrative judges would conduct hearings, thus al­
lowing administrative judges to issue decisions on ad­
ditional appeals, reducing potential backlogs, and
resolving cases sooner. As a result, MSPB could con­
serve time and resources in the long term. One partic­
ipant proposed a 5-year pilot to determine and
measure the efficiency of summary judgment on af­
fected parties.
On the other hand, focus group participants opposing
summary judgment for MSPB said that a motion for
summary judgment may not resolve whistleblower
cases any faster because it would require more dis­
covery, depositions and documents to establish the
disputed facts thereby creating more prehearing liti­
gation work.34 In addition, they said that while MSPB’s
34 Discovery documentation primarily includes depositions
of parties and potential witnesses, written interrogatories

136a
current caseload may decrease in the short term,
MSPB may spend more time dealing with appeals of
unfavorable summary judgment decisions. They ex­
plained that this could lead to prolonged litigation,
thereby eliminating any potential efficiency gained by
MSPB. Participants also discussed MSPB’s ability to
dismiss cases under its jurisdictional test, noting that
this process is like a summary judgment review. How­
ever, one participant distinguished MSPB’s current ju­
risdictional test from summary judgment because the
jurisdictional test only involves the whistleblower, not
the agency, and only reviews whether the whistle­
blower has exhausted his or her administrative reme­
dies and can establish the jurisdictional requirements
for MSPB review. Three participants pointed out the
small number of appeals that are currently adjudi­
cated on the merits as an example of MSPB’s current
efficiency in using its jurisdictional test. Adding sum­
mary judgment authority to MSPB, according to an­
other participant, would not only be duplicative but
would also create two barriers for a whistleblower’s
case to move forward.
Focus group participants not in favor of granting sum­
mary judgment to MSPB also stated that doing so
could unfairly erode employee whistleblowers’ right to
a hearing. They explained that the procedural nature
of responding to a summary judgment motion may in­
clude legal technicalities that employee whistleblow­
ers, who choose to represent themselves without legal
(questions and answers written under oath), written requests for
admissions of fact, and requests for production of documents.

137a
counsel, may not understand. Specifically, they stated
that summary judgment may be too complicated a le­
gal tactic to master for the average employee whistle­
blower, who may be confused about the burden needed
to overcome a summary judgment motion. For exam­
ple, employee whistleblowers may lack legal expertise
to properly complete required paperwork to address
the motion for summary judgment. Conversely, agency
attorneys who represent the involved agencies’
position in whistleblower appeals may be better posi­
tioned to draft sophisticated briefs and well-prepared
affidavits to which employee whistleblowers would be
unable to respond—a scenario that focus group partic­
ipants believe favors involved agencies.
One participant said that involved agencies already
win a majority of the appeals at MSPB, and if sum­
mary judgment were granted, the odds of employee
whistleblowers prevailing against an agency’s motion
would be nonexistent. The participant stated that the
current process is already an uneven playing field. An­
other participant explained that proving retaliatory
intent by the agency for whistleblowing may be too
difficult to achieve where the employee whistleblower
must rely on submitting a brief and documents to
support the employee’s allegations rather than a hear­
ing. In addition, focus group participants cited the ad­
ditional costs of conducting discovery as another
potential disadvantage for employee whistleblowers.
Conducting discovery includes gathering documenta­
tion and conducting depositions to establish disputed

138a
facts in order to draft motions required for summary
judgment.

Subject Matter Specialists Said Granting U.S.
District Courts Jurisdiction Would Increase
Overall Caseload, but Would Also Aid Employee
Whistleblowers
Focus group participants generally agreed that it
would be beneficial for employee whistleblowers if U.S.
District Courts were granted jurisdiction for whistle­
blower cases. They said that this would give whistle­
blowers access to a jury trial similar to nonfederal
employee whistleblowers.35 One participant pointed
out that a double standard already exists because cor­
porate whistleblowers can go to district court while
federal employee whistleblowers are unable to do so.
Another participant stated that it would be a good
idea to get federal employee whistleblower cases into
district court because the only option typically availa­
ble to get into federal court is on appeal to the U.S.
Court of Appeals for the Federal Circuit, which this
participant said overwhelmingly upholds the Board’s
35 Examples of nonfederal employee whistleblowers cited by
focus group participants include private sector employees covered
under Sarbanes-Oxley, as well as state and local employees who
have access to jury trials for First Amendment violations. Specif­
ically, the Sarbanes-Oxley Act of 2002 contains protections for
corporate whistleblowers from retaliation for reporting alleged
mail, wire, bank, or securities fraud; violations of Security and
Exchange Commission rules and regulations; or violations of fed­
eral law relating to fraud against shareholders.

139a
decisions.36 This participant also said that it would be
more feasible for federal employees to go to district
court for a full review of their claims rather than to
appeal to the U.S. Court of Appeals for the Federal Cir­
cuit, which has a limited scope of review.37 Another par­
ticipant explained that adding additional procedural
options for employee whistleblowers, such as district
court, could help strengthen the law.

WPEA temporarily permitted whistleblower reprisal ap­
peals at all U.S. Circuit Courts.
37 The U.S. Court of Appeals for the Federal Circuit reviews
the record and sets aside MSPB actions, findings or conclusions
found to be arbitrary, capricious, an abuse of discretion, or other­
wise not in accordance with law; obtained without procedures re­
quired by law; or unsupported by substantial evidence. 5 U.S.C.
§ 7703(c).
36

